Case: 19-1094

Documen:

117557551

Page: 1

Date Fik

2/27/2020

Entry ID: 6320382

United States Court of Appeals
For the First Circuit
No. 19-1094
IRVING F. ROUNDS, JR,
Plaintiff - Appellant,
v.
CHARLES KOCH; DAVID KOCH; UNITED STATES DEPARTMENT OF JUSTICE; ROD J.
ROSENSTEIN, U.S. Deputy Attorney General; ROBERT MUELLER, Special Counsel and
former F.B.I. Director; BOB GOODLATTE, Congressman, Chairman of the DOJ's Oversight
Committee,
Defendants - Appellees.
Before
Howard, Chief Judge.
Thompson and Kayatta, Circuit Judges.
JUDGMENT
Entered: February 27,2020
We have reviewed the record and the parties’ submissions. We allow the motion of
appellees Charles and David Koch for summary disposition, and we affirm the district court's
decision of January .8, 2019. The appellant has waived his arguments by failing to provide any
developed argumentation or legal authority in support of his position. See United States v.
Zannino, 895 F.2d 1, 17 (1st Cir. 1990). In any event, we would review appellant's claim only
under the highly deferential abuse of discretion standard, see Giroux v. Federal Nat'l Morte, Ass'n.
810 F.3d 103, 106 (1st Cir. 2016); eBay Inc, v. MercExchanee. L.L.C.. 547 U.S. 388,391 (2006),
and we see no abuse of discretion here.
Affirmed. See 1st Cir. R. 27.0(c). The motion to waive the filing fee is denied as moot. The
exhibits to the motions filed on July 15,2019, and September 9,2019, are ordered sealed in view
of their nature. All other pending motions are deni ed.
By tiie Court:

App. 1

Case: 19-1094

Document:

17557551

Page: 2

Date File*

/27/2020

Maria R. Hamilton, Clerk

cc:

Irving Franklin Rounds Jr.
Jack Irving Siegal
Mary Beth Murrane
Cynthia A. Young
Donald Campbell Lockhart

App. 2

Entry ID: 6320382

CM/ECF - USDC Massachusetts - Version

http$://ecf.r

is of 6/9/2018

rcl.dcn/cgi-bin/Dispatch,pl?l 55475781748303

Orders on Motions
4:18-CV-40Q66-TSH Rounds v. Koch et al CASE CLOSED on 06/27/2018
United States District Court
District of Massachusetts
Notice of Electronic Filing
The following transaction was entered on 1/8/2019 at 12:26 PM EST and filed on 1/8/2019
Case Name:
Rounds w Koch et al
Case Number:
4:18-cv-40066-TSH
Filer:
WARNING: CASE CLOSED on 06/27/2018
Document Number: 39(No document attached)
Docket Text:
District Judge Timothy S. Hillman: ELECTRONIC ORDER entered denying [32] Motion
for Injunctive Relief. (Castles, Martin)
4:18-CV-40066-TSH Notice has been electronically mailed to:
Jack I. Siegal

jsiegal@grsm.com

Michael P. Burke

mburke@grsm.com

4:18-cv-40066-TSH Notice will not be electronically mailed to:
Irving F. Rounds, Jr
P.O. Box 324
Clinton, MA 01510

! of 2

App. 3

1/8/2019,12:26 PM

Case: 19-1094

Document:

17570056

Page: 1

Date File

./25/2020

Entry ID: 6327481

United States Court of Appeals
For the First Circuit
No. 19-1094
IRVING F. ROUNDS, JR.,
Plaintiff - Appellant,
v.
CHARLES KOCH; DAVID KOCH; UNITED STATES DEPARTMENT OF JUSTICE; ROD J.
ROSENSTEIN, U.S. Deputy Attorney General; ROBERT MUELLER, Special Counsel and
former F.B.I. Director; BOB GOODLATTE, Congressman, Chairman of the DOTs Oversight
Committee,
Defendants - Appellees.
Before
Howard, Chief Judge.
Thompson and Kayatta, Circuit Judges.
ORDER OF COURT
Entered: March 25,2020
The "motion for reconsideration of judgment" is treated as a petition for panel rehearing,
and it is denied.
By the Court:
Maria R. Hamilton, Clerk
cc:
Irving Franklin Rounds Jr.
Jack Irving Siegal
Mary Beth Murrane
Cynthia A. Young
Donald Campbell Lockhart

App. 4

01/17/2020

28

01/21/2020

„ 29

01/22/2020

30

Chief Judge F. Dennis Saylor, IV: ELECTRONIC ORDER entered denying 22
Plaintiffs Motion for Interlocutory Appeal. Copy mailed. (Bono, Christine)
(Entered: 01/22/2020)

01/24/2020

31

MOTION for Interlocutory Appeal by Irving F. Rounds, Jr. (Jones, Sherry)
(Entered: 01/24/2020)

01/27/2020

32

Chief Judge F. Dennis Saylor, IV: ELECTRONIC ORDER entered denying 21
Motion. Copy mailed. (Bono, Christine) (Entered: 01/27/2020)

01/30/2020

33

Chief Judge F. Dennis Saylor, IV: MEMORANDUM AND ORDER ON
DEFENDANTS’ MOTION TO DISMISS entered. (Lara, Miguel) (Entered:
01/30/2020)

01/30/2020

34

Chief Judge F. Dennis Saylor, IV: ORDER DISMISSING CASE entered. (Lara,
Miguel) (Entered: 01/30/2020)

01/30/2020

35

Copy re 34 Order Dismissing Case, 33 Order on Motion to Dismiss mailed to
Irving Rounds, Jr. on 1/30/2020. (Lara, Miguel) (Entered: 01/30/2020)

02/12/2020

36

Plaintiffs Motion for Reconsideration by Irving F. Rounds, Jr.. (Attachments: # 1
Exhibit) (Kelly, Danielle) (Entered: 02/12/2020)

02/24/2020

32 MOTION for Injunctive Relief by Irving F. Rounds, Jr..(Halley, Taylor)
(Entered: 02/25/2020)

06/12/2020

38

Chief Judge F. Dennis Saylor, IV: "Plaintiffs Motion for Reconsideration
(Docket# 36) is DENIED."
ELECTRONIC ORDER entered denying 26 Motion for Reconsideration. (Bono,
Christine) (Entered: 06/12/2020)

06/12/2020

39

Chief Judge F. Dennis Saylor, IV: "Plaintiffs Motion for Injunctive Relief
pocket # 37) is DENIED."
ELECTRONIC ORDER entered denying 37 Motion for Injunctive Relief.
(Bono, Christine) (Entered: 06/12/2020)

Chief Judge F. Dennis Saylor, IV: ELECTRONIC ORDER entered denying 27
Motion for Injunctive Relief. Copy mailed. (Bono, Christine) (Entered:
01/17/2020)
MOTION for Interlocutory Appeal by Irving F. Rounds, Jr..(Halley, Taylor)
(Entered: 01/21/2020)

PACER Service Center
Transaction Receipt
07/26/202018:11:15
!iUps://ecf.mad,uscourts.gov/cgi-bin/DktRpl.pf?443044746507731-LJ_0-1

App. 5

7/26/20, 6:13 PM
Page 5 of 6

Case 1:15-cv-j.3541-MLW Document 30 Filed 08/^z/16 Page 2 of 3

litigated

in

the

Court

of

Federal

Claims.

See

28

U.S.C.

§1346(a) (2); Berman v. United States, 264 F.3d 16, 20-21 (1st Cir.
2001).

On July 13, 2016, Rounds filed an objection to the Report

and Recommendation, which provides no substantive argument, but
does request more time to seek legal counsel.

On August 1, 2016,

Rounds filed a motion requesting Magistrate Judge Kelly arbitrate
the parties' dispute.
The court has considered the Magistrate Judge's Report and
Recommendation, the submissions of the parties on the Motion to
Dismiss, and Rounds' objection.

This court has reviewed de novo

the questions of law, and finds the Report and Recommendation to
be thorough, thoughtful, and persuasive.

Rounds has not caused

counsel to appear on his behalf and, in any event, it is evident
that this court lacks jurisdiction.

The Report and Recommendation

is, therefore, being adopted.
In view of the foregoing, it is hereby ORDERED that:
1.

The

Recommendation

attached
{Docket

Magistrate
No.

18)

is

Judge's
ADOPTED

and

Report

and

INCORPORATED

pursuant to 28 U.S.C. §636.
2.

For the reasons stated in the Report and Recommendation,

the Motion to Dismiss (Docket No. 6) is ALLOWED.
3.

The Motion for Arbitration (Docket No. 28) is MOOT.

2

App. 7

Case l:l5-cv-x354i-MLW Document 30 Filed 08/^/l6 Page 3 of 3

Cl

UNITED SPATES DISTRICT JUDGE

3

App. 8

Case 4:17-cv-40072-TSH Document 27 Filed 02/12/18 Page 1 of 1

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS

Rounds,
Plaintiff,
CIVIL ACTION
V.
NO. 17-40072-TSH
Environmental Protection Agency, et ai.,
Defendants,

ORDER OF DISMISSAL
Hillman. D, J.

In accordance with the Court’s Order dated 2/12/18, granting the
defendants’ motion to dismiss, it is hereby ORDERED that the aboveentitled action be and hereby is dismissed.

By the Court,
2/12/18
Date

.

/s/ Martin Castles
Deputy Clerk

App. 9

Gase 4:18‘CV-40066-TSH Document 15 ' Filed 06/27/18 Rage 1 of 1

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS

Rounds,
Plaintiff,
CIVIL ACTION
V.
NO. 18-40066-TSH
Koch, et aL,
Defendants,

ORDER OF DISMISSAL
Hillman. D. J,

In accordance with the Court’s Order dated 6/27/18, granting the
defendants’ motion to dismiss, it is hereby ORDERED that the aboveentitled action be and hereby is dismissed.

By the Court >
6/27/18
Date

/s/ Martin Castles
Deputy Clerk

App. 10

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
ATTACHMENT 2
**************************

Plaintiff
-------Irving F. Rounds, Jr. 246 Beacon Street Apartment 1 Clinton, MA 03510
v.
Defendant#!
Charles Koch P.O. Box 2256 Wichita, KS-67201-2256
Defendant^
David Koch 740 Park Avenue Manhattan New York 10021
Defendant#?
United States Government Department of
Justice
U.S. Deputy Attorney General Rod Rosenstein
Special Counsel and former F.B.I. Director Robert Mueller
Congressman Robert Goodlatte Chairman of the DOJ’s oversight committee

Civil Action
NO 4:18-CV40066-DHH

*****************************

The Plaintiff files
A motion for
reconsideration
on order of
dismissal

PARTIES

App. 11

1- Plaintiff: Irving F. Rounds, Jr. is an individual residing at 246 Beacon Street Apartment 1,
■ Clinton MA 01510. “Mailing addresses P.O. Box 324, Clinton, MA 01510.”
2. Defendant #1, Charles Koch is an individual who resides in Wichita Kansas and has a mailing
address of P.O. Box 2256 Wichita, KS-67201-2256
3. Defendant #2 David Koch is an individual who resides at 740 Park Avenue Manhattan New
York 10021
4. Defendant #3 Department of Justice, which is a Departmen t of the government of the United
States of America, which maintains offices in Washington, D.C.
1
JURISDICTION
5. Jurisdiction is claimed under 28 USC Chapter Spc. 1343
Motion 1
6. Plaintiff incorporates by reference as though set forth in full here at all of the allegations
contained in paragraph 1 through and including 5 hereof.

7, The Plaintiff files a motion for reconsideration on order of dismissal, Rule 60, Relief from a
Judgment or Order. The Plaintiff did not receive the motion to dismiss the case from Defendants 1
and 2 in the mail in a timely manner. The Plaintiff was in the process of amending the complaint as
filed in the next motion (motion 2).

App. 12

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
ATTACHMENT 3

&

4ctfe ieie Sfe ******* ife ***•**&*# *

Plaintiff
Irving F. Rounds, Jr. 246 Beacon Street Apartment 1 Clinton, MA 01510

Defendant#!
Charles Koch P.O. Box 2256 Wichita, KS-67201-2256
Defendant#!
David Koch 740 Park Avenue Manhattan New York 10021
Defendant#3
United States Government Department of
Justice
U.S. Deputy Attorney General Rod Rosenstein
Special Counsel and former F.B.L Director Robert Mueller
Congressman Robert Good latte Chairman of the DOJ’s oversight committee

Civil Action
NO 4:18-CV40066-DHH

TV****************************

The Plaintiff files
A motion to
Amend
The Plaintiffs
Complaint

PARTIES
1. Plaintiff: Irving F. Rounds, Jr. is an individual residing at 246 Beacon Street Apartment 1,
Clinton MA 01510. “Mailing addresses P.O. Box 324, Clinton, MA 01510.”

App. 13

2. Defendant #1, Charles Koch is an individual who resides in Wichita Kansas and has a mailing
address of P.O. Box 2256 Wichita, KS-67201-2256
3. Defendant #2 David Koch is an individual who resides at 740 Park Avenue Manhattan New
York 10021
4* Defendant #3 Department of Justice, which is a Department of the government of the United
States of America, which maintains offices in Washington, D.C.
JURISDICTION
5. Jurisdiction is claimed under 28 USC Chapter Spc. 1343
Motion 2
6. Plaintiff incorporates by reference as though set forth in full here at all of the allegations
contained in paragraph 1 through and including 5 hereof.

?- The Plaintiff files a motion to amend the Plaintiffs complaint (see attached amended complaint
11 pages).

App. 14

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
ATTACHMENT 6
**************************

Plaintiff
Irving F, Rounds, Jr. 246 Beacon Street Apartment 1 Clinton, MA 01510
v.
Defendant#!
Charles Koch P.O. Box 2256 Wichita, KS-67201-2256
Defendant#2
David Koch 740 Park Avenue Manhattan New York 10021
Defendant#!
United States Government Department of
Justice
U.S. Deputy Attorney General Rod Rosenstein
Special Counsel and former F.BX Di rector Robert Mueller
Congressman Robert Goodlattc Chairman oftheDOJ’s oversight committee

Civil Action
NO 4:18-CV40066-DHH

*****************************

The Plaintiff files
A motion to
Supplement the
motion for
reconsideration
on order of
dismissal

App. 15

PARTIES
1. Plaintiff: Irving F. Rounds, Jr. is an individual residing at 246 Beacon Street Apartment 1,
Clinton MA 01510. “Mailing addresses P.O. Box 324, Clinton, MA 01510.”
2. Defendant #1, Charles Koch is an individual who resides in Wichita Kansas and has a mailing
address of P.O. Box 2256 Wichita, KS-67201-2256
3. Defendant #2 David Koch is an individual who resides at 740 Park Avenue Manhattan New
York 10021
4. Defendant #3 Department of Justice, which is a Department of the government of the United
States of America, which maintains offices in Washington, D.C.
.JURISDICTION
5. Jurisdiction is claimed under 28 USC Chapter Spc. 1343
Motion 4

6. The Plaintiff files a motion to supplement the motion for reconsideration on order of dismissal.
This motion is filed as additional argument to Defendants 1 and 2 Attorney Burke opposition to
Plaintiffs motion for Reconsideration and to Amend Complaint.
7. As stated in the motion for reconsideration on order of dismissal, the Plaintiff claimed that he
was in the Process of amending the complaint On the original complaint filed, the Plaintiff failed to
claim a key point on how Defendants 1 and 2 at the time had owned substantial stock shares in
Group MAC. The significance to not claiming that, it was one of the key motives into Defendants 1
and 2 harassing the Plaintiff. Defendant’s 1 and 2 would have lost substantial money if in fact that
this went public how Airtron/Group MAC was forcing its employees at the time when the Plaintiff
was employed by Airtron/Group MAC, to not only illegally vent refrigerants, exploit the elderly in
the form using high pressure sales tactics to sell them things they didn’t need and keep quiet about
ETVAC systems that Airtron/Group MAC had and was installing that was causing severe mold
problems within the ductwork, which was due to Airtron/Group MAC miss designed, poorly
installed and the use of substandard materials. The negative publicity would have dramatically
caused Airtron/Group MAC’S stock price to drop and caused Defendant’s 1 and 2 to lose
substantial money.
8. Attorney Burke had also stated: Rounds also attached a number of exhibits to his proposed
amended complaint, the vast majority of which are emails between Rounds and Comcast customer
service representatives- in which Rounds claims that the federal government is hacking computer
through Comcast network. None of these emails reference the Koch’s or provide any factual basis
Rounds allegations against them.

App. 16

9. The Plaintiff in the last exhibits filed never claimed that the federal government is hacking the
, Plaintiffs computer through Comcast network. The Plaintiff had stated and provided factual
evidence provided by the exhibits filed, that Defendant 3 is in fact not only interrupting the
Plaintiffs digital communication signal into his apartment, but had also proved that Defendant 3
has been harassing the Plaintiff in the form of blocking and or editing all the Plaintiffs incoming
and outgoing regular, electronic and FedEx mail. Which as a direct result has directly affected the
Plaintiffs ability to respond to this Legal matter in a timely matter.
10. Attorney Burke lacked to say about how Defendant 3 is harassing the Plaintiff in the form of
sending the Plaintiff bogus emails as outlined in the last exhibits filed, which is also affecting the
Plaintiff.
11. Attorney Burke had stated the Plaintiff had failed to name any of the Koch ’s agents, when the
Plaintiff did name some of the Koch’s agents in the original exhibits filed, such as one of the
Plaintiffs former co workers at Raytheon in Andover MA, Dan Green.

CONCLUSION
WHEREFORE, for the foregoing reasons, the Motion for Reconsideration and Motion to Amend
the Complaint should be allowed.
Date

Irving F. Rounds Jr.__[

Initially

App. 17

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
ATTACHMENT 7

**************************

Plaintiff
Irving F. Rounds, Jr. 246 Beacon Street Apartment 1 Clinton, MA 01510
v.
Defendant#l
Charles Koch P.O. Box 2256 Wichita, KS-67201-2256
Defendant#2
David Koch 740 Park Avenue Manhattan New York 10021
Defendant#3
United States Government Department of
Justice
U.S. Deputy Attorney General Rod Rosenstein
Special Counsel and former F.BX Director Robert Mueller
Congressman Robert Goodlatte Chairman of the DOJ’s oversight committee

Civil Action
NO 4:18-CV40066-DHH

*****************************

The Plaintiff files
A motion to have
Judge D. J.
Hillman recuse
Himself from
This case

PARTIES

App. 18

1. Plaintiff: Irving F. Rounds, Jr. is an individual residing at 246 Beacon Street Apartment 1,
Clinton MA 01510. “Mailing addresses P.O. Box 324, Clinton, MA 01510.”
y

2. Defendant #1, Charles Koch is an individual who resides in Wichita Kansas and has a mailing
address of P.O. Box 2256 Wichita, KS-67201-2256
3. Defendant #2 David Koch is an individual who resides at 740 Park Avenue Manhattan New
York 10021
4. Defendant #3 Department of Justice, which is a Department of the government of the United
States of America, which maintains offices in Washington, D.C.
JURISDICTION
5. Jurisdiction is claimed under 28 USC Chapter Spc, 1343

Motion 5

6. The Plaintiff files a motion to have Judge D.J. Hillman recuse himself from this case. The
Plaintiff makes this request because the Plaintiff feels that Judge Hillman is now bias and prejudice
to oversee this case. Judge Hillmans bias and prejudice is now causing physical harm to the
Plaintiff by allowing Defendants 1,2 and 3 to harass, threaten and intimidate the Plaintiff, as
outlined in the complaint, exhibits and motions not only in this case, but also in a recent Law suit
filed related to this Legal matter, Civil action 4:17-CV-40072-TSH, where Judge Hillman over saw
the case.

7. The Plaintiff had filed these motions along with the evidence to support the claim and allegations
from the Plaintiff, that Defendants 1,2, and 3 have been relentlessly harassing, threatening and
intimidating the Plaintiff for the different reasons, as outlined in this complaint and complaint 4:17CV-40072-TSH, along with the supporting exhibits and motions to date. The next motion (motion 6)
shows the most recent and past examples of one of the forms of harassment being levied against the
Plaintiff from Defendant 3 (see next motion with exhibits 286-294).
8. As a direct result from the treatment of Defendants 1,2 and 3, it has caused physical harm to the
Plaintiff, in the form of years lost off the life of the Plaintiff due to the stress and duress levied by
Defendants 1,2 and 3 towards the Plaintiff for over the last 20 years.
9. The Plaintiff while being employed at Life Technologies 35 Wiggins Avc. Bedford MA, suffered a
work-related accident in the form of filing a worker’s compensation claim for emotional distress.

App. 19

The Plaintiff had worked for Life Technologies for approximately 5 years and had received
promotions and had good job performance ratings until Defendants 1 and 2 agents told Life
Technologies upper management in the summer of 2011 that the Plaintiff was a
whistleblower/informant for Defendant 3 and a sex offender and pedophile. From that point, up
until the Plaintiff was forced to quit for whistleblower retaliation, the Plaintiff was harassed by Life
Technologies upper management.
10. On 12/19/11 the Plaintiff filed a worker’s compensation claim for emotional distress and was out
of work until 2/27/12. Life technologies disputed the claim, but the Plaintiff was awarded the pay
after going for a hearing at the Commonwealth of Massachusetts Department of Industrial
Accidents Board (see exhibits 297-298).
11. The Plaintiff not only had to endure the whistleblower retaliation and harassment from the
Plaintiffs coworkers, but also was harassed by Defendant 3 undercover FBI Agent and co worker
Meg Reilly when she strategically placed a camera pointed directly at the Plaintiffs work cube (see
picture on exhibit page 121).
12. The Plaintiff has had medical help for work related and stress induced by Defendants 1,2 and 3
brought on by the relentless harassment (see exhibits 295-296). “The Plaintiff has been treated (and
consulted with) ... "Doctor Jerry Blaine, MD, Social Worker Michael E. Foran, LICSW and
Doctor John L. Przybylski, MD. They all feel that with the harassment levied by Defendant 1,2,
and 3 it has taken an adverse effect and toll on the Plaintiffs health.

Conclusion
WHEREFORE, for the foregoing reasons, the Motion should be allowed.

Date

%/ iV

Irving F. Rounds Jr.
\ j

Initials

App. 20

Certificate of Service

I, Irving F. Rounds, Jr. do hereby certify that I gave notice today of the within Motion to
have Judge D.J. Hillman recuse himself from the above -entitled action by mailing a copy of same
to Michael P. Burke, Esq.

Dated: August 13, 2018.
Irvi

App. 21

Rounds, Jr. -

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
ATTACHMENT 10

**************************

Plaintiff
Irving F. Rounds, Jr. 246 Beacon Street Apartment 1 Clinton, MA 01510
v.
Defendant#!
Charles Koch P.O. Box 2256 Wichita, KS-67201-2256
Defendant#2
David Koch 740 Park Avenue Manhattan New York 10021
Defendant#?
United States Government Department of
Justice
U.S. Deputy Attorney General Rod Rosenstein
Special Counsel and former F.B.L Director Robert Mueller
Congressman Robert Goodlatte Chairman of the DOJ’s oversight committee

is is it it,is

is is is is isit is itis' *

Civil Action
NO 4:18-CV40066-TSH

is is it is ie tfe is is is is ■

The Plaintiff files
An Interlocutory
Appeal

PARTIES

App. 22

1. Plaintiff: Irving F. Rounds, Jr. is an individual residing at 246 Beacon Street Apartment 1,
Clinton MA 01510. “Mailing addresses P.O. Box 324, Clinton, MA 01510.”
2. Defendant #1, Charles Koch is an individual who resides in Wichita Kansas and has a mailing
address of P.O. Box 2256 Wichita, KS-67201-2256
3. Defendant #2 David Koch is an individual who resides at 740 Park Avenue Manhattan New
York 10021
4. Defendant #3 Department of Justice, which is a Department of the government of the United
States of America, which maintains offices in Washington, D.C.
JURISDICTION
5. Jurisdiction is claimed under 28 USC Chapter Spc. 1343
Motion 8

6. The Plaintiff files an Interlocutory appeal on one narrow part of this case: the rulings dated
8/31/18, docket# 27, District Judge Timothy S. Hillman: ELECTRONIC ORDER entered denying
docket# 23 Motion to have Judge D.J. Hillman recuse himself; denying docket# 24 Motion to
Amend; and denying docket# 25 Motion to have defendant 3 stop relentlessly harassing the
Plaintiff. (Castles, Martin) (Entered: 08/31/18) see exhibit#299.
7. The Plaintiff files this motion based on newly discovered evidence to support this motion.
8. On docket# 23 Motion to have Judge T.S. Hillman recuse himself; newly discovered evidence (see
exhibits 300 -313) to support this motion shows that by having Judge Hillman not recusing himself,
that his bias and prejudice towards the Plaintiff is physically harming the Plaintiff in years being
lost off the Plaintiffs life, caused by the stress induced by Defendants 1,2 and 3 as supported by two
of the Plaintiffs medical Doctors.
9. On denying docket# 24 Motion to Amend; newly discovered evidence to support this motion
shows that Defendant 3 by hacking into the Plaintiffs cell phone (see exhibits 300 -309) is not only
one more example of Defendant 3 relentless harassment towards the Plaintiff, but it also supports
Defendant 3 efforts to disrupt the Plaintiffs communication abilities to respond to this complaint in
a timely manner.
10. On denying docket# 25 Motion to have defendant 3 stop relentlessly harassing the Plaintiff;
newly discovered evidence (see exhibits 300 -309) to support this motion shows that Defendant 3 is
continuing to relentlessly harass the Plaintiff which is physically harming the Plaintiff in the form
of years lost of the Plaintiffs life, harming the Plaintiff financially in the form of costs to switch his
cell phone from Apple to Google, having to buy a new computer because Defendant 3 infected the
Plaintiffs old iPhone and iPad and disrupting the Plaintiffs communication abilities to respond to
this complaint in a timely manner.

App. 23

Conclusion
WHEREFORE, for the foregoing reasons, the Motion should be allowed.

Irving F. Rounds Jr.

Initials >

Certificate of Service

I, Irving F. Rounds, Jr. do hereby certify that I gave notice today of the within Motion an
Interlocutory appeal by mailing a copy of same to Michael P. Burke, Esq.

Dated: September 7th, 2018.

Irving F. Rounds, Jr.

App. 24

Michael P. Burke
(See above for address)
ATTORNEY TO BE NOTICED
Defendant
United States Government
Department of Justice
Defendant
Rod Rosenstein
U.S. Deputy Attorney General
Defendant
Robert Mueller
Special Counsel andfomer F.B.I.
Director
Defendant
Robert Goodlatte
Congressman, Chairman of the DOJ’s
oversight committee

Date Filed

#

Docket Text

06/22/2018

11 Refusal to Consent to Proceed Before a US Magistrate Judge. (Burgos, Sandra)
(Entered: 06/22/2018)

06/22/2018

13 ELECTRONIC NOTICE of Case Reassignment. District Judge Timothy S.
Hillman assigned to case. If the trial Judge issues an Order of Reference of any
matter in this case to a Magistrate Judge, the matter will be transmitted to
Magistrate Judge David H. Hennessy. (Danieli, Chris) (Entered: 06/22/2018)

06/27/2018

14 District Judge Timothy S. Hillman: ELECTRONIC ORDER entered granting 7
Motion to Dismiss. No opposition having been filed, the Defendants' Motion to
Dismiss is granted for the reasons set forth in their brief. (Castles, Martin)
(Entered: 06/27/2018)

06/27/2018

15 District Judge Timothy S. Hillman: ORDER entered. ORDER DISMISSING
CASE(CastJes, Martin) (Entered: 06/27/2018)

07/03/2018

16 MOTION for Reconsideration re 15 Order Dismissing Case, 14 Order on Motion
to Dismiss by Irving F. Rounds, Jr.(Burgos, Sandra) (Entered: 07/03/2018)

07/03/2018

H MOTION to Amend 1 Complaint, by Irving F. Rounds, Jr.(Burgos, Sandra)
(Entered: 07/03/2018)

https://ecf.mad.uscourts.gov/cgi-bin/DktRpl.pi?822170563301312-L_1_0-1

App. 26

8/2/20, 11:11 AM
Page 2 of S

07/06/2018

18 NOTICE of Appearance by Jack I. Siegal on behalf of Charles Koch, David

Koch (Siegal, Jack) (Entered: 07/06/2018)
07/09/2018

19 Opposition re 16 MOTION for Reconsideration re 15 Order Dismissing Case, 14
Order on Motion to Dismiss, 12 MOTION to Amend 1 Complaint, filed by
Charles Koch, David Koch. (Burke, Michael) (Entered: 07/09/2018)

07/16/2018

2Q Supplemental MOTION for Reconsideration re 15 Order Dismissing Case by
Irving R Rounds, Jr.(Jones, Sheny) (Entered: 07/16/2018)

07/23/2018

21 RESPONSE to Motion re 20 MOTION for Reconsideration re 15 Order
Dismissing Case filed by Charles Koch, David Koch. (Burke, Michael) (Entered:
07/23/2018)

08/03/2018

22

District Judge Timothy S. Hillman: ELECTRONIC ORDER entered denying J6
Motion for Reconsideration; denying U Motion to Amend; and denying 2Q
Motion for Reconsideration. (Castles, Martin) (Entered: 08/03/2018)

08/13/2018

23

MOTION to have Judge D.J Hillman recuse himself from case by Irving F.
Rounds, Jr.(Burgos, Sandra) (Entered: 08/13/2018)

08/13/2018

24 MOTION to Amend jj£ MOTION for Reconsideration by Irving R Rounds, Jr.
(Burgos, Sandra) (Entered: 08/13/2018)

08/13/2018

25

08/13/2018

26 EXHIBIT by Irving R Rounds, Jr. (Burgos, Sandra) (Entered: 08/13/2018)

08/31/2018

27

09/11/2018

2S NOTICE OF INTERLOCUTORY APPEAL as to 27 Order on Motion for

Second MOTION to have defendant 3 stop relentssly harassing the plaintiff by
Irving R Rounds, Jr.(Burgos, Sandra) (Entered: 08/13/2018)

District Judge Timothy S. Hillman: ELECTRONIC ORDER entered denying 21
Motion to have Judge D.J Hillman recuse himself; denying 24 Motion to
Amend; and denying 25 Motion to have defendant 3 stop relentlessly harassing
the plaintiff. (Castles, Martin) (Entered: 08/31/2018)
Miscellaneous Relief,, Order on Motion to Amend,,, by Irving F. Rounds, Jr, ( )
NOTICE TO COUNSEL: A Transcript Report/Order Form, which can be
downloaded from the First Circuit Court of Appeals web site at
hltp://www,cal.uscourts.gov MUST be completed and submitted to the Court of
Appeals. Counsel shall register for a First Circuit CM/ECF Appellate Filer
Account at http://pacer.psc.uscourts.gov/cmecf. Counsel shall also review
the First Circuit requirements for electronic filing by visiting the CM/ECF
Information section at http://www.eal.uscourts.gov/efiling.htm. US District
Court Clerk to deliver official record to Court of Appeals by 10/1/2018.
(Jones, Sherry) (Entered: 09/11/2018)

09/12/2018

22 Certified and Transmitted Abbreviated Electronic Record on Appeal to US Court
of Appeals re 28 Notice of Interlocutory Appeal (Paine, Matthew) (Entered:

https://ecf.mad. uscourts,gov/cgi-foin/DktRpt.pt?822170563301312-L_1_0-1

App. 27

8/2/20,11:11 AM
Pago 3 of 5

09/12/2018)
30

USCA Case Number 18-1878 for 28 Notice of Interlocutory Appeal filed by
Irving F. Rounds, Jr.. (Paine, Matthew) (Entered: 09/12/2018)

09/20/2018 ' 31

Filing fee/payment: $ 505.00, receipt number WOR001702 for 2£ Notice of
Interlocutory Appeal. (Burgos, Sandra) (Entered: 09/20/2018)

11/02/2018

32

MOTION for Injunctive Relief by Irving F. Rounds, Jr.(Jones, Sherry) (Entered:
11/02/2018)

11/02/2018

33

EXHIBIT re 32 MOTION for Injunctive Relief by Irving F. Rounds, Jr. (Jones,
Sherry) (Entered: 11/02/2018)

11/27/2018

34 USCA Judgment as to 28 Notice of Interlocutory Appeal filed by Irving F.
Rounds, Jr. (Paine, Matthew) (Entered: 11/28/2018)

11/27/2018

35 MANDATE of USCA as to 28 Notice of Interlocutory Appeal filed by Irving F.
Rounds, Jr.. Appeal 28 Terminated (Paine, Matthew) (Entered: 11/28/2018)

11/30/2018

36 AFFIDAVIT of Irving Rounds in Support re 32 MOTION for Injunctive Relief
filed by Irving F. Rounds, Jr. (Jones, Sherry) (Entered: 11/30/2018)

12/06/2018

37

AFFIDAVIT of Irving Rounds in Support re 32 MOTION for Injunctive Relief
filed by Irving F. Rounds, Jr. (Attachments: # 1 Exhibit)(Jones, Sherry) (Entered:
12/06/2018)

12/06/2018

38

AFFIDAVIT of Irving Rounds in Support re 32 MOTION for Injunctive Relief
filed by Irving F. Rounds, Jr. (Jones, Sherry) (Entered: 12/06/2018)

01/08/2019

39 District Judge Timothy S. Hillman: ELECTRONIC ORDER entered denying 32
Motion for Injunctive Relief. (Castles, Martin) (Entered: 01/08/2019)

01/14/2019

40

01/14/2019

42 NOTICE OF APPEAL as to 39 Order on Motion for Injuctive Relief by Irving F.

09/12/2018

MOTION to have 3 Defendant stop harassing the Plaintiff by Irving F. Rounds,
Jr.(Burgos, Sandra) (Entered: 01/14/2019)
Rounds, Jr NOTICE TO COUNSEL: A Transcript Report/Order Form, which
can be downloaded from the First Circuit Court of Appeals web site at
http://www.ca 1 .uscourts.gov MUST be completed and submitted to the Court of
Appeals. Counsel shall register for a First Circuit CM/ECF Appellate Filer
the First Circuit requirements for electronic filing by visiting the CM/ECF
Information section at http://wwvv.cal.uscourts.gov/cinecf. US District
Court Clerk to deliver official record to Court of Appeals by 2/4/2019.
(Attachments: # 1 USCA Letter)(Paine, Matthew) (Entered: 01/18/2019)

01/16/2019

41

District Judge Timothy S. Hillman: ELECTRONIC ORDER entered denying 40
Motion to have 3 Defendants stop harassing the Plaintiff. Plaintiff is reminded
HIS CASE WAS CLOSED on 06/27/2018. (Castles, Martin) (Entered:

https://ecf.mad.UBCourts.gov/cgI-bin/DktRpt.pl2822170563301312-L_1_0-1

App. 28

8/2/20, 11:11 AM
Page 4 of 5

Ol/16/20i9)
01/18/2019

Certified and Transmitted Abbreviated Electronic Record on Appeal to US Court
of Appeals re 42 Notice of Appeal. (Paine, Matthew) (Entered: 01/18/2019)

43

01/22/2019 " 44 USCA Case Number 19-1094 for 42 Notice of Appeal filed by Irving F. Rounds,
Jr.. (Paine, Matthew) (Entered: 01/22/2019)
USCA Judgment as to 42 Notice of Appeal filed by Irving F. Rounds, Jr..
AFFIRMED... (Paine, Matthew) (Entered: 02/28/2020)

02/27/2020

45

04/01/2020

M MANDATE of USCA as to 42 Notice of Appeal filed by Irving F. Rounds, Jr..
Appeal 42 Terminated (Paine, Matthew) (Entered: 04/02/2020)

PACER Service Center
Transaction Receipt
08/02/2020 11:04:28
PACER
Login:

irvingr2018:5650585:0

Client
Code:

Description: Docket Report

4:18-CV-40066-TSH,
! Start date:
6/18/2018 End date:
Search ;
8/2/2020 Starting
Criteria: i
with document: 1
Ending with
document: 55

Billable
Pages:

Cost:

f

3

https://ecf.rtiad.uscGurts.gov/cgi-bin/DktRpt.pl?82217056330l312-L_1„0-1

App. 29

0.30

8/2/20, 11:11 AM
Page 5 of 5

Case l:19-tv-11388-FDS Document 33 Filed 01/^20 Page 1 of 8

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS

IRVING ROUNDS, JR.,
Plaintiff,
v.
UNITED STATES DEPARTMENT OF JUSTICE;
WILLIAM BARR, United States Attorney General;
JEFFREY ROSEN, United States Deputy Attorney
General; and LINDSEY GRAHAM, United States
Senator,
Defendants.

)
)
)
)
)
)
)
)

Civil Action No.
19-11388-FDS

)
)
)
)
)
)

MEMORANDUM AND ORDER ON
DEFENDANTS’ MOTION TO DISMISS
SAYLOR, C.J.
This is an action by a pro se litigant seeking damages from United States government
officials and the Department of Justice. Plaintiff Irving F. Rounds, Jr., has brought this suit
against the United States Department of Justice, Attorney General William Barr, Deputy
Attorney General Jeffrey Rosen, and United States Senator Lindsey Graham for unspecified civil
rights violations and alleged tortious conduct, including purported harassment and interference
with his mail. According to the complaint, defendants have prevented Rounds from developing
and marketing a “perpetual motion machine,” for which he seeks billions of dollars in damages.
Defendants have moved to dismiss the complaint under Fed. R. Civ. P. 12(b)(1) for lack
of subject-matter jurisdiction and Fed. R. Civ. P, 12(b)(6) for failure to state a claim upon which
relief can be granted. Although the allegations of the complaint are, to say the least, implausible,

App. 30

Case 1:1b ^-11388-FDS Document 33 Filed Ox,d0/20 Page 2 of 8

the court is required to consider the jurisdictional issue first. For the reasons set forth below, the
motion to dismiss will be granted based on a lack of subject-matter jurisdiction.
I*

Factual and Procedural Background
Irving F. Rounds, Jr. is an individual residing in Framingham, Massachusetts. (Compl.

1). The complaint alleges that defendants have harassed him for 21 years. (Id: ^ 7). The alleged
harassment includes interfering with delivery of his mail, e-mail, and FedEx deliveries. (Id. f
13). It alleges that he has received medical treatment for stress due to the alleged harassment
(Id. f9). It further alleges that the ongoing harassment has prevented him from developing and
marketing his invention, a “perpetual motion machine,” costing him approximately
$50,000,000,000 (fifty billion dollars) in lost income. (Id.

15).1

On June 24,2019, Rounds filed this action, which asserts nine counts against defendants.
The complaint alleges coercion (Count 1): collusion (Count 2); harassment (Count 3); fraud
(Count 4); obstruction ofjustice (Count 5); conspiracy (Count 6); mail fraud (Count 7) ; invasion
of privacy (Count 8); and abuse of process (Count 9). It further alleges that jurisdiction is proper
under 28 U.S.C. § 1343.
Defendants have moved to dismiss the complaint under Fed. R. Civ. P. 12(b)(1) for lack
of subject-matter jurisdiction and Fed. R. Civ. P. 12(b)(6) for failure to state a claim upon which
relief can be granted.
IL

Legal Standard

“When faced with motions to dismiss under both 12(b)(1) and 12(b)(6), a district court,
absent good reason to do otherwise, should ordinarily decide the 12(b)(1) motion first.”

bn,,™

“ ,h“!"ks “•oow,ow’00
2

App. 31

Case 1:19-Cv-j.1388-FDS Document 33 Filed Gl/..-,20 Page 3 of 8

Northeast Erectors Ass ’n ofBTEA v. Secretary ofLabor, Occupational Safety & Health Admin,,
62 F.3d 37, 39 (1st Cir. 1995).
The party invoking the jurisdiction of a federal court “carries the burden of proving its
existence.” Johansen v. United States, 506 F.3d 65, 68 (1st Cir. 2007) (quoting Murphy v. United
States, 45 F.3d 520,522 (1st Cir. 1995)). If the party seeking to invoke federal jurisdiction “fails
to demonstrate a basis for jurisdiction,” the motion to dismiss must be granted. Id. In ruling on
such a motion, the district court must construe the complaint liberally, treating all well-pleaded
facts as true and indulging all reasonable inferences in favor of the plaintiff. Aversa v. United
States, 99 F.3d 1200, 1209-10 (1st Cir. 1996).
When, as here, a motion to dismiss is filed against a pro se litigant, any document filed
by the pro se party “is to be liberally construed, and a pro se complaint, however inartfully
pleaded, must be held to less stringent standards than formal pleadings drafted by lawyers.”
Erickson v. Pardus, 551 U.S. 89, 94 (2007) (quoting Estelle v. Gamble, 429 U.S. 97, 106 (1976))
(internal quotation marks omitted); see also Fed. R. Civ. P. 8(e) (“Pleadings must be construed
so as to do justice.”). However, while pro se complaints “are accorded ‘ an extra degree of
solicitude’... even a pro se plaintiff is required to ‘set forth factual allegations, either direct or
inferential, respecting each material element necessary to sustain recovery under some actionable
legal theory.’” Wright v. Town ofSouthbridge, 2009 WL 415506, at *2 (D. Mass. Jan. 15, 2009)
(quoting Adams v. Stephenson, 116 F.3d 464, at *1 (1 st Cir, June 23, 1997) (per curiam)).

m.

Subject-Matter Jurisdiction
The doctrine of sovereign immunity bars suits for money damages against the United

States, its agencies, and federal officers sued in their official capacities, unless the government
has explicitly waived its immunity. See McCloskey v. Mueller, 446 F.3d 262, 272 (1st Cir,

3

App. 32

Case 1:19

JL388-FDS Document 33 Filed 01

20 Page 4 Of 8

2006); United States v. Mitchell, 445 U.S. 535, 538 (1980). When a federal officer is sued in his
official capacity, the lawsuit is to be treated as a suit against the government itself and is
therefore subject to the doctrine of sovereign immunity. Kentucky v. Graham, 473 U.S. 159, 166
(1985).
Sovereign immunity is jurisdictional in nature, and the court therefore lacks subjectmatter jurisdiction to entertain a suit against the United States without a waiver. F.D.l.G. v.
Meyer, 510 U.S. 471, 475 (1994). A waiver of sovereign immunity must be “unequivocally
expressed in statutory text” and strictly construed in the government’s favor. Lane v. Pena, 518
U.S. 187, 192 (1996). Such a waiver thus may not be implied. Id. Furthermore, the plaintiff
bears “the burden of proving sovereign immunity has been waived.” Mahon v. United Slates,
742 F.3d 11, 14 (1st Cir. 2014).
Here, plaintiff has sued a federal agency (the Department of Justice) and three federal
officers (Attorney General William Barr, Deputy Attorney General Jeffrey Rosen, and United
States Senator Lindsey Graham) in their official capacity for money damages. There is no
indication in the complaint that the officers are being sued in their individual capacities. This
Court therefore lacks subject-matter jurisdiction over this matter unless sovereign immunity has
been waived.
A,

28 U.S.C. 8 1343

The complaint alleges that federal jurisdiction exists under 28 U.S.C. § 1343. (Compl.

f 3).2 In substance, § 1343 gives district courts original jurisdiction over claims arising from

2 Section 1343 provides as follows:
(a) The district courts shall have original jurisdiction of any civil action authorized by law to

be commenced by any person:
(1) To recover damages for injury to his person or property, or because of the deprivation of

4

App. 33

Case l:19-cv-il388-FDS Document 33 Filed 01/ow20 Page 5 of 8

violations of 42 U.S.C. § 1985 and federal civil rights statutes. It is not, by itself, an
“unequivocally expressed” waiver of the sovereign immunity of the United States. See Lane v,
Pena, 518 U.S. 187, 192(1996). Rather, “when federal court jurisdiction is invoked pursuant to
[§ 1343], [the Court] must look to the specific Act of Congress .. . invoked to determine whether
that Act by its terms expresses Congress’ consent to suits against the United States by persons in
the plaintiffs position.” Salazar v. Heckler, 787 F.2d 527, 529 (1 Oth Cir.’l 986); see also Beale
v. Blount, 461 F.2d 1133, 1138 (5th Cir. 1972) (“Sections 1331 and 1343, Title 28, United States
Code, may not be construed to constitute waivers of the federal government’s defense of
sovereign immunity.”).
The complaint cites no specific statutes as a basis for recovery. This Court will construe
the pro se complaint liberally and analyze whether the statutes contemplated by the subsections
of § 1343—chiefly, 42 U.S.C. §§ 1985 and 1983—expressly waive sovereign immunity.
Sections 1343(a)(1) and (a)(2) specifically grant the district court jurisdiction over claims
arising from violations of 42 U.S.C. § 1985. Section 1985 creates a cause of action for victims
of a conspiracy to interfere with civil fights. It allows for the recovery of damages against “two
or more persons” who conspire to prevent an officer from performing duties, obstruct justice,

any right of privilege of a citizen of the United States, by any act done in furtherance of any
conspiracy mentioned in section 1985 of Title 42;
(2) To recover damages from any person who fails to prevent or to aid in preventing any
wrongs mentioned in section 1985 of Title 42 which he had knowledge were about to occur
and power to prevent;
(3) To redress the deprivation, under color of any State law, statute, ordinance, regulation,
custom or usage, or any right, privilege or immun ity secured by the Constitution of the United
States or by any Act of Congress providing for equal rights of citizens or of all persons within
the jurisdiction of the United States;
(4) To recover damages or to secure equitable relief or other relief under any Act of Congress
providing for the protection of civil rights, including the right to vote.

5

App. 34

Case l:19-Cv-xl388-FDS Document 33 Filed 01/^_,20 Page 6 of 8

intimidate party, witness, or juror, or otherwise violate equal protection. No such claim is set
forth in the complaint. Furthermore, and in any event, § 1985 is not a waiver of sovereign
immunity. See Jachetta v. United States, 653 F.3d 898,908 (9th Cir. 2011) (sovereign immunity
not waived by 28 U.S.C. §1343(a)(3), 42 U.S.C. §1985, nor 42 U.S.C. §1983); Affiliated
Professional Home Health Care Agency v. Shalala, 164 F.3d 282,286 (5th Cir. 1999) (suits
brought under 28 U.S.C. § 1343 and 42 U.S.C. §§ 1981, 1983, 1985, 1986, and 1988 barred by
sovereign immunity).
Section 1343(a)(3) grants the district court jurisdiction over civil actions “to redress the
deprivation, under color of any State law ... of any right, privilege or immunity secured by the
Constitution of the United States or by any Act of Congress providing for equal rights.” Courts
have generally construed § 1343(a)(3) as a grant of federal court jurisdiction for civil rights
claims under § 1983, because the language of § 1343(a)(3) is largely similar to the language of
§ 1983.3 See, e.g., Tempeltnan v. Beasley, 43 F.3d 1456, at *1 (1st Cir. 1994) (per curiam)
(unpublished table opinion); Mack v. Alexander, 575 F.2d 488, 489 (5th Cir. 1978) (“Section
1343 places original j urisdiction in the district courts when there is a substantive claim for
violation of 42 U.S.C. §§ 1983 and 1985.”). Again, no claim under § 1983 is set forth in the
complaint. And § 1983 is not a waiver of sovereign immunity . See Jachetta, 653 F.3d at 908;
Affiliated Professional, 164 F.3d at 286.
Finally, § 1343(a)(4) grants the district court jurisdiction over violations of federal civil
rights (including Voting rights) statutes. Again, no such claim is set forth in the complaint, and

3 Section 1983 states, in relevant part: “Every person who, under color of any statute, ordinance, regulation,
custom, or usage, of any State or Territory or the District of Columbia, subjects, or causes to be subjected, any
citizen of the United States or other person within the jurisdiction thereof to the deprivation of any rights, privileges,
or immunities secured by tire Constitution and laws, shall be liable to the party injured in an action at law, suit in
equity , or other proper proceeding for redress..

6

App. 35

Case 1:19-^- J.1388-FDS Document 33 Filed Oly^/20 Page 7 of 8

the statute is not a waiver of sovereign immunity.
In summary, 28 U.S.C. § 1343 does not itself provide a waiver of sovereign immunity
and the complaint does not state a cause of action under any statute that waives sovereign
immunity.
B.

The Federal Tort Claims Act

The Federal Tort Claims Act (“FTCA”), 28 U.S.C. §§ 1346(b), 2671-2680, “comprises a
limited waiver of the federal government’s sovereign immunity . .. and grants federal courts
jurisdiction over claims against the United States that fall within its ambit” McCloskey v.
Mueller, 446 F.3d 262,266 (1st Cir. 2006) (internal citations omitted). Under the FTCA, the
United States may be liable for “injury or loss of property, or personal injury or death caused by
the negligent or wrongful act or omission of any employee of the Government while acting
within the scope of his office or employment, under circumstances where the United States, if a
private person, would be liable to the claimant in accordance with the law of the place where the
act or omission occurred.” 28 U.S.C. § 1346(b)(1).
Here, to the extent that plaintiff seeks damages for personal injury—for example, the
alleged stress described in Compl. H 9—such a claim must be brought under the FTCA.4
However, a claimant may not institute a claim under the FTCA in federal district court unless (1)
he has filed an administrative claim with the “appropriate Federal agency,” and (2) the agency
has issued a final denial, or failed to make a final disposition within six months. 28 U.S.C.
§2675(a). Failure of a claimant to exhaust his administrative remedies is a non-waivable,

* Hie complaint names individual federal officers as defendants. However, the United States is the only
proper defendant in an action brought under the FTCA. See 28 U.S.C. §§ 1346(b), 2679(b)(1); McCloskey v.
Mueller, 446 F.3d 262, 266 (1st Cir. 2006). Therefore, no FTCA claim can lie against defendants Barr, Rosen, or
Graham.

7

App. 36

Case 1:19

.1388-FDS Document 33 Filed 01

20 Page 8 of 8

jurisdictional bar to bringing suit in federal court under the FTCA. See Barrett ex rel. Estate of
Barrett v. United States, 462 F.3d 28, 38; see also McNeil v. United States, 508 U.S. 106,113
(1994) (“The FTCA bars claimants from bringing suit in federal court until they have exhausted
their administrative remedies,”). Here, there is no indication that plaintiff has filed any
administrative claims for personal injury. Because plaintiff has not exhausted his administrative
remedies, this court does not have jurisdiction over his tort claims against the United States
under the FTCA.
Tn summary, this action is barred by the doctrine of sovereign immunity, and this court
accordingly does not have subject-matter jurisdiction over this action.
IV.

Conclusion
For the foregoing reasons, defendants’ motion to dismiss pursuant to Fed. R. Civ. P.

12(b)(l) for lack of subject-matter jurisdiction is GRANTED. The Court does not reach the
issue of whether the complaint should be dismissed because it fails to state a claim upon which
relief can be granted.
So Ordered.
is!F. Dennis Savior. IV
F. Dennis Saylor, IV
Chief Judge, United States District Court

Dated: January 30, 2020

8

App. 37

Case l:19-v,

1388-FD3 Document 36 Filed 02

20 Page 1 of 4

UNITED STATES DISTRICT COURT
*- DISTRICT OF MASSACHUSETTS
Motion
* * sV * sV * * s'.- * * * sV *■* * * * * * * * * sV :> * *

Plaintiff
Irving F, Rounds, Jr. PO Box 5241 Framingham, MA 01701-9988

r
a.cr5: co

v.

■to-

Defendants
United States Government Department of
Justice
U.S. Attorney General William Barr
U.S. Deputy Attorney General Jeffery Rosen
U.S. Senator Lindsey Graham

“i

Oo

*sv>
-4

; :
*

Sr

* * * it * * * * ft******* * * * * * * * * * * * * *

Civil Action
NO:l:19-CV-11388FDS
The Plaintiff files
A MOTION FOR
RECONSIDERATION

;

App. 38

<**>
r. :

Case l:19-Cv-J.1388-FDS Document 36

Filed 02/__ 20

Page 2 of 4

PARTIES

1. Plaintiff: Irving F. Rounds, Jr, is an individual "Mailing addresses P.O. Box S241 Framingham, MA
01701-9988"
2. The Defendants, Department of Justice, a Department of the government of the United States of
America, and the named individuals are officials who maintain offices in Washington, D.C.
JURISDICTION
3. Jurisdiction is claimed under 28 USC Chapter sec. 1343.
4. Plaintiff incorporates by reference all allegations below as pertaining to all named defendants.
Motion 12

5. The Plaintiff files a Motion for reconsideration on the Order of dismissal, dated January 30,
2020.
6. The Plaintiff did not cite any specific statutes but bad indicated in the complaint (see count Six) that Defendants Barr, Rosen and Graham acted as individuals in a conspiracy against the Plaintiff
which interfered with the Plaintiff’s civil rights.
7. Defendants Barr, Rosen and Graham, by not stopping the abuse being levied against Plaintiff (as
outlined in the complaint and exhibits), prevented officers from performing their duties while
obstructing justice. This failure to ignore the law violated the Plaintiffs civil rights; as a result,
these defendants acted in their individual capacities and not as officers of the federal government:
consequently the defense of sovereign immunity was effectively waived.
8. Given the elements of the Plaintiffs prima facie case and the multiple exhibits contained therein,
the Plaintiff demonstrated that this complaint falls under The Federal Tort Claims Act (“FTCA”).
9. On December 14,2011 at approximately 4:00pm, one of Plaintiffs counsel (Attorney Lana
Sullivan of the law firm Davids & Cohen, Wellesley, MA) telephoned Special Agent Dan Green of
the U.S. E.P.A.’s Tampa, Florida field office. This communication along with email
communications to Special Agent Green (see example exhibit 107) and other phone calls intended to
settle this Legal matter, satisfied the legal requirements of an administrative claim under the
Federal Tort Claims Act
10. Additionally, on March 20,2015, Assistant U.S. Attorney Terry Caminiti telephoned the
Plaintiff We discussed settling this matter out of Court (see exhibit 98) with the filing of an
administrative claim.
11. In March of 2013 the Plaintiff bad reported one of the companies involved in this Legal matter
(Charm Sciences) (see attached exhibit 637) and had spoken with and emailed (see exhibits 124-162)
Anthony C. Maida Investigator of the U.S. Department of Labor - OSHA Region 1 Whistleblower
Protection Program, Boston, MA. These multiple contacts at multiple times relative to a settlement
of this matter out of Court also constituted the filing of an administrative claim as required under
the Federal Tort Claims Act

App. 39

Casel:i9-cv-

,88-FDS Document 36 Filed 02/1

Page 3 of 4

12. Starting on May 29,2019, the Plaintiff sent multiple emails (by certified mail)(see example
.. exhibits,469,470 email to Barr, Rosen and Graham) to Defendants Barr, Rosen and Graham
concerning a settlement of this matter oiit of Court. These communications were also evidence of
the Plaintiff’s attempt to seek an administrative remedy of his claims with the Federal government
13. The Plaintiff has filed these above-mentioned, good-faith, administrative claims and demands
with these individuals and agents/agencies of the U.S. Government at various times. All have failed
to respond within six (6) months; the Plaintiff has exhausted his administrative remedies.
14. The Plaintiff repeats his earlier request to the District Court to intervene in trying to have
Defendants 2 and 3 resolve this Legal matter. The Plaintiff also requests a hearing on this Motion.

WHEREFORE, for the foregoing reasons, the underlying Motion should be allowed.

Date
February 12,2020

Irving F. Rounds Jr.

Initialsj

Certificate of Service

I, Irving F. Rounds, Jr. do hereby certify that I gave notice today of the within Motion an
Interlocutory appeal by mailing a copy of same to the Boston U.S. Attorney’s office.

Dated: February 12,2020

App. 40

Case l:19-cv- 388-FDS Document 36 Filed 02/i_ _0 Page 4 of 4

Irving F. Rounds, Jr.

App. 41

Pro Se 2 (Rev. 12/16) Complaint and Request for Injunction

United States district Court
for the
District of Massachusetts
(Boston)

Irving F. Rounds Jr.
P.O.Box 5241
Framingham, MA 01710
PIcdntijffs)
(Write the full name of each plaintiffwho is filing this complaint.
If the names ofall the plaintiffs cannotfit in the space above,
please write "see attached” in the space and attach an additional
page with the full list ofnames.)

-vSee Attachments: 1

Defendant(s)
(Write the full name of each defendant who is being sued. Jfthe
names ofalt the defendants cannot fit in the space above, please
write “see attached" in the space and attach an additional page
with thefull list ofnames.)

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No.

19-11388-FDS
(to be filled in by the Clerk's Office)

‘•5

c$S3
O‘
-r*

:r
.:<■

O
rn

MOTIO N 13 REQUEST FOR INJUNCTION
L

The Parties to This Complaint
A.

The Plaintiffs)
Provide the information below for
needed.
Name
Street Address
City and County
State and Zip Code
Telephone Number
E-mail Address

B.

each plaintiff named in the complaint Attach additional pages if
trying F. Rounds Jr.

P.O. Box 5241
Framingham Middlesex
MA, 01710
857-500-9845_______ ________
Roundsmechanical5@gmaii.com

The Defendants)
Provide the information below for each defendant
individual, a government agency, an organization, or a corporattom hot m mat
include the person's job or title (ifknown). Attach additional pages if needed.

^^

Page 1 of 6

App. 42

Pro Se 2 (Rev. 12/16) Complaint and Request for Injunction

Defendant No. 1
Name

Department of Justice

Job or Title (ifknown)

NA

Street Address

950 Pennsylvania Avenue NW

City and County

Washington, District of Columbia

State and Zip Code

District of Columbia 20530

Telephone Number
E-mail Address (ifknown)
Defendant No. 2
Name

William Barr

Job or Title (ifknown)

U.S. Attorney General

Street Address

950 Pennsylvania Avenue NW

City and County

Washington, District of Columbia

State and Zip Code

District of Columbia 20530.

Telephone Number
E-mail Address (ifknown)
Defendant No. 3
Name

Jeffrey Rosen

Job Or Title (ifknown)

U.S. Deputy Attorney General

Street Address

950 Pennsylvania Avenue NW

City and County

Washington. District of Columbia

State and Zip Code

District of Columbia 20530

Telephone Number
E-mail Address (ifknown)
Defendant No. 4
Name

Lindsey Graham

Job or Title (ifknown)

U.S. Senator

Street Address

290 Russell Senate Office Building

City and County

Washington, District of Columbia

State and Zip Code

District of Columbia 20530

Telephone Number
E-mail Address (ifknown)

App. 43

Sage 2 of 6

Pro Se 2 (Rev. 12/16) Complaint and Request for Injunction

n.

Basis for Jurisdiction
, Federal courts arc courts of limited jurisdiction (limited power). Generally, only two types of cases can be
heard in federal court: cases involving a federal question and cases involving diversity of citizenship of the
parties. Under 28 U.S.C. § 1331, a case arising under the United States Constitution or federal laws of treaties
is a federal question case. Under 28 U.S.C. § 1332, a case in which a citizen of one State sues a citizen of
another State or nation and the amount at stake is more than $75,000 is a diversity of citizenship case. In a
diversity of citizenship case, no defendant may be a citizen of the same State as any plaintiff.
What is the basis for federal court jurisdiction? (check ail that apply)
0Fedcral question
13 Diversity of citizenship
Fill out the paragraphs in this section that apply to this case.
A.

If the Basis for Jurisdiction Is a Federal Question
List the specific federal statutes, federal treaties, and/or provisions of the United States Constitution that
are at issue in this case.
28 U.S.C. 1343

B.

If the Basis for Jurisdiction Is Diversity of Citizenship
1.

The Plaintiff(s)
a.

If the plaintiff is an individual
The plaintiff (name) Irving F. Rounds Jr.

, is a citizen of the

State of (name) Massachusetts

b.

If the plaintiff is a corporation
The plaintiff (name)

, is incorporated

under the laws of the State of (name)
and has its principal place of business in the State of (name)

r

(Ifmore than one plaintiffis named in the complaint, attach an additionalpage providing the
same informationfor each additional plaintiff.)
2.

The Defendants)
a.

If the defendant is an individual
The defendant (name) See attachments 2
the State of (name)
foreign nation)

App. 44

, is a citizen of
. Or is a citizen of

Pagc3 of 6

Pro Se 2 (Rev, 12/16) Complaint and Request for Injunction

b.

If the defendant is a corporation
The defendant, (name)
the laws of the State of (name)

, is incorporated under
, and has its

principal place of business in the State of (name)
Or is incorporated under the laws of (foreign nation)
and has its principal place of business in (name)
(Ifmore than one defendant is named in the complaint, attach On additional page providing the
same information for each additional defendant.)
3.

The Amount in Controversy
The amount in controversy- the amount the plaintiff claims the defendant owes or the amount at
stake-is more than $75,000, not counting interest and costs of court, because (explain):
Damages exceed $75,000.00

ffl.

Statement of Claim
Write a short and plain statement of the claim. Do not make legal,arguments. State as briefly as possible the
facts showing that each plaintiff is entitled to the injunction or other relief sought. State how each defendant
was involved and what each defendant did that caused the plaintiff harm or violated the plaintiffs rights,
including the dates and places of that involvement or conduct. If more than one claim is asserted, number each
claim and write a short and plain statement of each claim in a separate paragraph. Attach additional pages if
needed.
A.

Where did the events giving rise to your claim(s) occur?
Florida and Massachusetts (see attached complaint with exhibits)

B.

What date and approximate time did the events giving rise to your claim(s) occur?
January 1998 to present (see attached complaint with exhibits)

App. 45

Page 4 of 6

Pro Se 2 (Rev, 12/16) Complaint and Request for Injunction

c.

What are the facts underlying your claim(s)? (For example: whal happened toyou? Who did-what?
Was anyone else involved? Who else saw what happened?)

Defendants #1, #2 and #3 through their agents and specifically a manager of the DOJ (agent of
Defendant #1, #2 and #3) have followed me to my gym (as outlined in the Exhibits) and followed me to
Shaw's supermarket on February 2, 2020 (see exhibits) whereupon the Plaintiff filed a complaint with
Shaw's. This DOJ's egregious behavior toward the Plaintiff is placing the Plaintiff and the public in
imminent danger given the agents' harassing and intimidating behavior. Most recently, a manager who is
an agent of Defendants #1, #2 and #3 has been following the Plaintiff to his new gym at Orchard Hills
Athletic Club in Lancaster, Massachusetts (see exhibits). The Plaintiff's fear is for his safety and that of
the public’s safety; the DOJ, by provoking the Plaintiff, could potentially cause some type of altercation
where the agents could discharge their firearms not only harming the Plaintiff but anyone caught in some
type of crossfire. The Plaintiff, starting in January 1998, was effectively "entrapped" twice for extortion
and has been forced against his will through various investigations bv Defendants #1. 2# and #3.

rv.

Irreparable Injury
Explain why monetary damages at a later time would not adequately compensate you for the injuries you
sustained, are sustaining, or will sustain as a result of the events described above, or why such compensation
could not be measured.
The Defendants #1, #2 and #3 through their agents along with the specific individual (DOJ manager) have placed
the Plaintiff in constant fear of being falsely arrested given the harassing and intimidating behavior of their agents
and the named individual (DOJ manager as outlined in the exhibits). This has been documented by the Plaintiff's
two medical doctors (Doctor Jerry Blaine, MD, Doctor John L. Przybylski, MD) and one clinical Social Worker
(Michael E. Foran, LICSW). They all feel that this has taken a major toll on the Plaintiff physically, in the form of
years lost of life, because of the shear emotional duress levied by Defendants' 1,2 and 3 agents as well as the
latest abuse at the Plaintiff's new gym, Orchard Hills Athletic Club. All three will provide Doctor notes to support
that claim should the Court require them to do so.

V.

Relief
State briefly and precisely what damages or other relief the plaintiff asks the court to order. Do not make legal
arguments. Include any basis for claiming that die wrongs alleged arc continuing at the present time. Include
the amounts of any actual damages claimed for the acts alleged and the basis for these amounts. Include any
punitive or exemplary damages claimed, the amounts, and the reasons you claim you are entitled to actual or
punitive money damages.
The Plaintiff needs all 3 Defendants through their agents to stop harassing, threatening, stalking and intimidating
the Plaintiff and placing the Plaintiff in constant fear of his safety and that of others. The Plaintiff is seeking relief
in the form of compensatory and punitive damages as outlined in the complaint.

App. 46

Page S of 6

Pro Sc 2 (Rev. 12/16) Complaint and Reques

VI.

unction

Certification and Closing
Under Federal Rule of Civil Procedure 11, by signing below, I certify to the best of my knowledge, information,
and belief that this complaint: (1) is not being presented for an improper purpose, such as to harass, cause
unnecessary delay, or needlessly increase the cost of litigation; (2) is supported by existing law or by a
nonfrivolous argument for extending, modifying, or reversing existing law; (3) the factual contentions have
evidentiary support or, if specifically so identified, will likely have evidentiary support after a reasonable
opportunity for further investigation or discovery; and (4) the complaint otherwise complies with the
requirements of Rule 11.
A.

For Parties Without an Attorney
I agree to provide the Clerk’s Office with any changes to my address where case-related papers may be
served. I understand that my failure to keep a current address on file with the Clerk’s Office may result
in the dismissal of my case.
Date of signing:
Signature of Plaintiff
Printed Name of Plaintiff

B.

02/12/2020

Irving F^Rounds Jr. ^
\/

For Attorneys
Date of signing:

02/12/2020

Signature of Attorney
Printed Name of Attorney
Bar Number
Name of Law Firm
Street Address
State and Zip Code
Telephone Number
E-mail Address

Page 6 of 6
'*TefS!

iiKiiBiltiluti

App. 47

rsra

Attachments
1. A) Department of Justice
950 Pennsylvania Avenue NW
Washington, DC 20530
B) William Barr
950 Pennsylvania Avenue NW
Washington, DC 20530
C) Jeffrey Rosen
950 Pennsylvania Avenue NW
Washington, DC 20530
D) Lindsey Graham
290 Russell Senate Office Building
Washington, DC 20510
2. A) Department of Justice
950 Pennsylvania Avenue NW
Washington, DC 20530
B) William Barr
950 Pennsylvania Avenue NW
Washington, DC 20530
C) Jeffrey Rosen
950 Pennsylvania Avenue NW
Washington, DC 20530
D) Lindsey Graham
290 Russell Senate Office Building
Washington, DC 20510

'

App. 48

4

Pro Se 2 (Rev. 12/16) Complaint and Request for Injunction

United States District Court
for the
District of Massachusetts
(Boston)
Irving F. Rounds Jr.
P.O. Box 5241
Framingham, WlA 01710
Plaintiffs■)
(Write the full name ofeach plaintiff who isfiling this complaint.
Ifthe names ofall the plaintiffs cannotfit in the space above,
please write "see attached" in the space and attach an additional
page with thefull list ofnames.)

-vSee Attachments: 1

Defendants)
(Write thefull name ofeach defendant who is being sued. Ifthe
names ofall the defendants cannot fit in the space above,please
write "see attached" in the space and attach an additional page
with the full list ofnames.)

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No.

19-11388-FDS
(to befilled in by the Clerk's Office)

' O
„•*

^52
c5°P'
Oo

•3
iV

r
*■'- j

-*r»

p.

:.o
o

nr.

MOTION 13 BEQUEST FOR INJUNCTION
L

The Parties to This Complaint
The Plaintiffs)

A.

Provide the information below for each plaintiff named in the complaint. Attach additional pages if
needed.
Name
Irving F. Rounds Jr.
i’

O

£

o,

e-

1-

r.“-

C.

t

- r

t,.rc

Street Address

P.O. Box 5241

City and County

Framingham Middlesex

State and Zip Code

MA, 01710

Telephone Number

857-500-9845

E-mail Address

Roundsmechanical5@gmail.com

<r.
C".-.

B.

The Defendants)
Provide the information below for each defendant named in the complaint whether the defendant is an
individual, a government agency, an organization, or a corporation. For an individual defendant

include the person's job or title (ifknown). Attach additional pages if needed.
Page 1 of 6

App. 49

CLOSED

United States District Court
District of Massachusetts (Boston)
CIVIL DOCKET FOR CASE #: l:19-cv-11388-FDS
Rounds, Jr. v. United States Department of Justice et al
Assigned to: Chief Judge F. Dennis Saylor, IV
Demand: $9,999,000
Cause: 28:1983 Civil Rights

Date Filed: 06/24/2019
Date Terminated: 01/30/2020
Jury Demand: Plaintiff
Nature of Suit: 440 Civil Rights: Other
Jurisdiction: U.S. Government
Defendant

Plaintiff
Irving F. Rounds, Jr.

represented by Irving F. Rounds, Jr.
P.O.Box 5241
Framingham, MA 01701
PRO SB

V.
Defendant
UNITED STATES DEPARTMENT
OF JUSTICE

represented by Anita Johnson
United States Attorney's Office
John Joseph Moakley Federal
Courthouse
Suite 9200
1 Courthouse Way
Boston, MA 02210
617-748-3100
Email: anita.johnson@usdoj.gov
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Defendant
William Barr
United States Attorney General

represented by Anita Johnson
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Jeffery Rosen
United States Deputy Attorney General

represented by Anita Johnson
(See above for address)

https://ecf.mad. uscoutts.gov/cgi-bm/Dktfipt.pl74430 44 74 6507731 ~LJL0~1

App. 50

7/26/20, 6:13 PM
Page 1 of 6

ATT<

EY TO BE NOTICED

Defendant
represented by Anita Johnson
(See above for address)
ATTORNEY TO BE NOTICED

Lindsey Graham
United States Senator

Docket Text

Date Filed

#

06/24/2019

1 COMPLAINT against Jeffery Rosen, William Barr, UNITED STATES
DEPARTMENT OF JUSTICE, Lindsey Graham, filed by Irving F. Rounds, Jr..
(Attachments: # 1 Civil Cover Sheet, # 2 Category Form)(McDonagh, Christina)
(Entered: 06/24/2019)

06/24/2019

2 NOTICE of Case Assignment. Magistrate Judge M. Page Kelley assigned to
case. Plaintiffs counsel, or defendant's counsel if this case was initiated by the
filing of a Notice of Removal, are directed to the Notice and Procedures
regarding Consent to Proceed before the Magistrate Judge which can be
downloaded here. These documents will be mailed to counsel not receiving
notice electronically. Pursuant to General Order 09-3, until the Court receives for
filing either a consent to the Magistrate Judge's jurisdiction or the reassignment
of the case to a District Judge, the initial assignment of a civil case to the
Magistrate Judge is a referral to the Magistrate Judge under 28 USC 636(b) for
all pretrial non-dispositive matters and Report and Recommendations, but not
for the Rule 16(b) scheduling conference. (Finn, Mary) Modified docket entry
number on 6/24/2019 (adminn, ). (Entered: 06/24/2019)

06/24/2019

3

Filing fee: $400.00, receipt number 1BST075003 for 1 Complaint (Coppola,
Katelyn) Modified docket entry number on 6/24/2019 (adminn,). (Entered:
06/24/2019)

06/24/2019

4

Summons Issued as to William Barr, Lindsey Graham, Jeffery Rosen, UNITED
STATES DEPARTMENT OF JUSTICE. Counsel receiving this notice
electronically should download this summons, complete one for each
defendant and serve it in accordance with Fed.R.Civ.P. 4 and LR 4.1.
Summons will be mailed to plaintiff(s) not receiving notice electronically for
completion of service. (McDonagh, Christina) (Entered: 06/24/2019)

06/24/2019

5

General Order 09-1, dated January 6,2009 regarding the E-Government Act and
Personal Identifiers entered. (McDonagh, Christina) (Entered: 06/24/2019)

07/15/2019

£ MOTION to stop the Defendants from harassing the Plaintiff filed by Irving F.
Rounds, Jr. (Belmont, Kellyann) (Additional attachments) added on 7/15/2019:
# 1 Exhibits) (Belmont, Kellyann). (Entered: 07/15/2019)

07/15/2019

7

MOTION for Leave to file electronically filed by Irving F. Rounds, Jr..(Belmont

https://ecf.mad.uscourts.gov/cgi-bin/DktRpl.pl2443044746S07731-LJ_0-1

App. 51

7/26/20, 6:13 PM
Page 2 of 6

Kellyaim) (Entered: 07/15/2019)
09/09/2019

8 MOTION for Relief from Defendants Harassment filed by Irving F. Rounds, Jr.

(Attachments: # 1 Attachfnent)(Belmont, Kellyann) (Entered: 09/09/2019)
09/20/2019

9 SUMMONS Returned Executed as to Department of Justice by Irving F.
Rounds, Jr. (Belmont, Kellyann) (Entered: 09/23/2019)

09/20/2019

IQ SUMMONS Returned Executed as to William Barr by Irving F. Rounds, Jr.
(Belmont, Kellyann) (Entered: 09/23/2019)

09/20/2019

11 SUMMONS Returned Executed as to JefiFeiy Rosen by Irving F. Rounds, Jr.
(Belmont, Kellyann) (Entered: 09/23/2019)

09/20/2019

12 SUMMONS Returned Executed as to Lindsey Graham. (Belmont, Kellyann)
(Main Document 12 replaced on 9/23/2019) (Belmont, Kellyann). (Additional
attachments) added on 9/23/2019: # 1 Affidavit of Delivery) (Belmont,
Kellyann). (Entered: 09/23/2019)

09/20/2019

12 MOTION for entry of Default Final Judgment by Irving F. Rounds, Jr.
(Attachments: # 1 Attachments)(Belmont, Kellyann) (Entered: 09/23/2019)

09/26/2019

14 NOTICE of Appearance by Anita Johnson on behalf of William Barr, Lindsey
Graham, Jeffery Rosen, UNITED STATES DEPARTMENT OF JUSTICE
(Johnson, Anita) (Entered: 09/26/2019)

10/04/2019

15

10/07/2019

16 SUMMONS Returned Executed as to US Attorney by Irving F. Rounds, Jr.
(Attachments: # 1 Certificate of service)(Belmont, Kellyann) (Entered:
10/08/2019)

12/06/2019

17

12/09/2019

18 ELECTRONIC NOTICE TO COUNSEL: Notification forms indicating whether

Magistrate Judge M. Page Kelley: ELECTRONIC ORDER entered denying 12
Motion for Default Judgment. Federal Rule of Civil Procedure 12(a)(2) states
that "[t]he United States, a United States agency, or a United States officer or
employee sued only in an official capacity must serve an answer to a complaint,
counterclaim, or crossclaim within 60 days after service on the United States
attorney." There is nothing on the docket to reflect whether the United States
attorney was served, or when. There is no basis upon which to enter a default.
(MacDougall, Patricia) (Entered: 10/04/2019)

MOTION to Dismiss by all defendants by William Barr, Lindsey Graham,
Jeffery Rosen.(Johnson, Anita) (Entered: 12/06/2019)
or not a party has consented to proceed before a U.S. Magistrate Judge have not
been received in the Clerk's Office. The submission of the form is mandator}'.
Completed forms shall be filed promptly. Additional forms can be obtained on
the Court’s web page at http://www.mad.uscourts.gov. (MacDougall, Patricia)
(Entered: 12/09/2019)

https://ecf.mad.uscourLs.gov/cgi-bin/DklRpt.pl7443044746507731-L_1_0-1

App. 52

7/26/20, 6:13 PM
Page 3 of 6

12/09/2019

12 MEM>__ A.NDUM in Support re 17 MOTION

Dismiss by all defendants filed
by UNITED STATES DEPARTMENT OF JUSTICE. (Johnson, Anita) (Entered:
12/09/2019)

12/10/2019

20

Opposition re 12 MOTION to Dismiss by all defendants filed by Irving F.
Rounds, Jr. (Belmont, Kellyann) (Entered: 12/10/2019)

12/10/2019

21

MOTION for Entry of Default Final Judgment Memorandum of Law in support
of motion for default final judgment by Irving F. Rounds, Jr. (Belmont,
Kellyann) (Entered: 12/10/2019)

12/10/2019

22 MOTION for Injunctive Relief from Defendants Harassment filed by Irving F.

Rounds, Jr. (Attachments: # 1 Exhibits)(Belmont, Kellyann) (Entered:
12/10/2019)
12/16/2019

21 Opposition re 12 Memorandum in support re MOTION to Dismiss by all
defendants filed by Irving F. Rounds, Jr. (Belmont, Kellyann) (Entered:
12/17/2019)

12/16/2019

24

12/17/2019

25 ELECTRONIC NOTICE of Case RE-Assignment. Judge F. Dennis Saylor, IV
assigned to case. If the trial Judge issues an Order of Reference of any matter in
this case to a Magistrate Judge, the matter will be transmitted to Magistrate
Judge M. Page Kelley. (Finn, Mary) (Entered: 12/17/2019)

01/13/2020

26 Chief Judge F. Dennis Saylor, IV:

Refusal to Consent to Proceed Before a US Magistrate Judge. (Belmont,
Kellyann) (Entered: 12/17/2019)

Plaintiffs Motion to Stop Defendants from Harassing Plaintiff (Docket No. 6) is
DENIED.
Plaintiffs Motion for Relief from Defendants Harassment (Docket No. 8) is
DENIED.
Plaintiffs Motion for Entry of Default Judgment (Docket No. 21) is DENIED.
Plaintiffs Motion for Injunctive Relief from Defendants Harassment (Docket
No. 22) is DENIED.
ELECTRONIC ORDER entered denying 6 Motion ; denying £ Motion; denying
21 Motion for Entry of Default: denying 22 Motion. (Copy mailed.) (Bono,
Christine) (Entered: 01/13/2020)
01/15/2020

27

MOTION for Injunctive Relief by Irving F. Rounds, Jr.. (Attachments: # I
Attachments, # 2 Exhibit, # 3 Exhibit, # 4 Exhibit, # 5 Exhibit, # 6 Exhibit, # 2
Exhibit, # 8 Exhibit, # 2 Exhibit)(Burgos, Sandra) (Entered: 01/15/2020)

hUps://©cf.mad,uscotirts.gov/cgi-bin/DktPpt.pl?443044746507731-L_1_0-1

App. 53

7/26/20, 6:13 PM
Page A of 6

01/17/2020

28

Chiel
je F. Dennis Saylor. IV: ELECTRO
ORDER entered denying 22
Motion for Injunctive Relief. Copy mailed. (Bono, Christine) (Entered:
01/17/2020)

01/21/2020 .. 29 MOTION for Interlocutory Appeal by Irving F. Rounds, Jr..(Halley, Taylor)
(Entered: 01/21/2020)
Chief Judge F. Dennis Saylor, IV: ELECTRONIC ORDER entered denying 29
Plaintiff s Motion for Interlocutory Appeal. Copy mailed. (Bono, Christine)
(Entered: 01/22/2020)

01/22/2020

30

01/24/2020

31 MOTION for Interlocutory Appeal by Irving F. Rounds, Jr. (Jones, Sherry)
(Entered: 01/24/2020)

01/27/2020

32

Chief Judge F. Dennis Saylor, IV: ELECTRONIC ORDER entered denying 31
Motion. Copy mailed. (Bono, Christine) (Entered: 01/27/2020)

01/30/2020

33

Chief Judge F. Dennis Saylor, IV: MEMORANDUM AND ORDER ON
DEFENDANTS’ MOTION TO DISMISS entered. (Lara, Miguel) (Entered:
01/30/2020)

01/30/2020

34

Chief Judge F. Dennis Saylor, IV: ORDER DISMISSING CASE entered, (Lara,
Miguel) (Entered: 01/30/2020)

01/30/2020

35

Copy re 34 Order Dismissing Case, 33 Order on Motion to Dismiss mailed to
Irving Rounds, Jr. on 1/30/2020. (Lara, Miguel) (Entered: 01/30/2020)

02/12/2020

36 Plaintiffs Motion for Reconsideration by Irving F. Rounds, Jr.. (Attachments: # 1
Exhibit) (Kelly, Danielle) (Entered: 02/12/2020)

02/24/2020

12 MOTION for Injunctive Relief by Irving F. Rounds, Jr..(Halley, Taylor)
(Entered: 02/25/2020)

06/12/2020

38

06/12/2020

39 Chief Judge F. Dennis Saylor, IV: "Plaintiffs Motion for Injunctive Relief
(Docket # 37) is DENIED."
ELECTRONIC ORDER entered denying 37 Motion for Injunctive Relief.
(Bono, Christine) (Entered: 06/12/2020)

Chief Judge F. Dennis Saylor, IV: "Plaintiffs Motion for Reconsideration
(Docket # 36) is DENIED."
ELECTRONIC ORDER entered denying 36 Motion for Reconsideration. (Bono,
Christine) (Entered: 06/12/2020)

PACER Service Center
Transaction Receipt
07/26/2020 18:11:15

f

A
https://ecf.1iiad.uscourls.gov/cgi-bin/DktRpt.pl7443044746507731-LJ.0-1

App. 54

7/26/20, 6:13 PM
Page 5 of 6

frv Rounds
Prom:
Sent:,
To:

Cc:
Subject:

irv rounds [roundsmechanicat@verizon.net]
Friday, January 06, 2012 8:48 AM
'Hoffmann, Uma’
’dave.goodwin@lifetech .com'
RE: RE: Follow Up: 12/20/2011

Uma:
Can you possibly make it Tuesday?
Irv
From: Hoffmann, Uma [maiito:Uma.Hoffmann@lifetech.oom3
Sent: Friday, January 06,2012 12:13 AM
To: irv rounds
Cc: Goodwin, Dave

Subject: RE: RE: Follow Up: 12/20/2011
irv.
I can meet at early as 7:00 a.m. on Monday morning (if that works for you) and then coordinate with Dave Goodwin to
have him meet with you directly after our discussion.
Thank you,
Uma
From: irv rounds fmailto:roundsmechanical@verizon.net1
Sent: Thursday, January OS, 2012 6:29 PM
To: Hoffmann, Uma
Cc: Goodwin, Dave; 'Gaytri Kachroo’
Subject; RE: RE: Follow Up: 12/20/2011
Uma:
If you could please let me kno w when your available either next week or the following.! would prefer to meet in
Woburn. Yes my intention is to file a worker's compensation claim. If Dave Goodwin could also meet with me that same
day to discuss and process the claim. As both you and Dave stated, I am willing to speak with your carrier that same day
to discuss my claim.
Thanks,
Irv
From: Hoffmann, Uma rmailto:Uma.Hoffmann@lifetech.com1
Sent: Tuesday, January 03, 2012 7:22 PM
To: roundsmechanical@verizon.net
Cc: Goodwin, Dave
Subject: R£: RE: Follow Up: 12/20/2011
Irv,

EXHIBIT PAGE 28
App. 55

I will be able to meet with you on Monday 1/9/2012 at 8:00 a.m. at either the Bedford or Woburn site (whichever you
prefer). Please confirm back to me by tomorrow morning if you able to make date so that I can make travel
arrangements.
Because you have not confirmed your intentions regarding your employment status, we are assuming that you are
requesting a workers' compensation leave of absence. I have requested the leave of absence team to provide you with
the appropriate paperwork for this leave so please ensure that you complete and return this right away. It is imperative
that we receive the completed form from you so that your absences today can be property classified and excused. If we
have misunderstood your intentions, please let me know immediately.
Additionally, we will need to process your Worker's Compensation claim and will need your cooperation in
communicating with our carrier and Dave Goodwin. You can either connect this week with Dave Goodwin or if you wish,
we can make arrangements to have you connect with Dave when you are onsite on Monday.

I look forward to meeting with you on Monday.
Thank you,
Uma

From: roundsmechanical@verizon.net fmailto:roundsmechanical@verizon.netl
Sent: Friday, December 30, 2011 3:00 PM
To: Hoffmann, Uma; Goodwin, Dave; okadrroo@kachrooieQal.com

Subject: Re: RE: Follow Up: 12/20/2011
Dear Uma:
Thank you for your E-Mail response. Although I am suprised you do not wish to use the resources Of my attorney towards the
coopererative resolution we both seek, and in view of the safety concerns I have related, I am glad that you are taking my concerns
seriously and wish to investigate them. I want to be helpful to you and to the department and to that end, i would like to collect some
information and documentation that may be of assistance prior to our meeting. I suggest with the holidays upon us that it may be more
fnutful for us to meet a week fron Tuesday, January 10,2012. Plaese iet me know if you are amenable to meet with me at that time.
Thank you and Happy New Year!
Regards,
Irv
On 12/28/11, Hoffmann, Uma<Uma,Hoffrnann@lifetech.com> wrote:
Irv,

Thank you for your email. You have requested that we provide ah answer to your concerns listed in your
December 19, 2011 letter. We are taking your concerns very seriously and our initial response to those
concerns is to conduct an investigation in to them.

EXHIBIT PAGE 29
App. 56

We have begun an Investigation, and we have been attempting to speak with you directly regarding those
concerns. An important step in moving that investigation forward is having a discussion with you so we can get
all the details regarding your concerns so we can ensure we fully understand them and can conduct a thorough
investigation. Thus, I continue to look forward to the have an in-person meeting with you.

Thank you for the suggestion of having your attorney presenting during our meeting. However, we are not able
to accommodate your request.

1 am available tomorrow afternoon or Tuesday morning to meet with you. Please let me know which of these
dates work for you so I can make plans to travel to the Bedford facility for our meeting.

Thank you,

Uma Hoffmann
Human Resources ] www.lifetechnoloaies.com/careers
phone 716 774 0647 * mobile 760 405 7170 * uma.hoffrnann@lifetech.com
3175 Staley Rd.* Grand island* NY* 14072

P Please consider the environment before printing this e-mail

The information contained in this email may be confidential, private and/or legally privileged, it has been sent
for the sole use of the intended recipients). If the reader of this message is not an intended recipient, you are
hereby notified that any unauthorized review, use, disclosure, dissemination, distribution, or copying of this
communication, or any of its contents, is strictly prohibited. If you have received this communication in error,
please contact ihe sender by reply email and destroy ail copies of the original message.

EXHIBIT PAGE 30
App. 57

From: irv rounds fmailto:roundsmechan:cal@verizon.net1
Sent: Tuesday, December 27, 201112:30 PM
To: Hoffmann, Uma
Cc: 'Gaytri Kachroo’; Goodwin, Dave
Subject: FW: Follow Up: 12/20/2011
Importance: High
Sensitivity; Confidential

Uma.

I would like to sit down with you to try to clear the air so that we can junction again back to a better level
within the department I want to get back to that, so we can work more efficiently and ensure a safe and
cohesive working environment for the betterment of the company. I think we both share the same common
goal which is the betterment of the department. Prior to our meeting. I would appreciate it if you could please
answer the concerns listed on the attachment dated 12/19/11 prepared by myself (see attached questions). Also
would you be willing to have my Attorney present in our meeting. She might be able to help us mediate issues
in a positive format.

Thank you for your attention.

Irv

From: irv rounds rmailto:roundsmechanical@verizon.net1
Sent: Wednesday, December 21,20116:19 AM
To: 'Hoffmann, Uma*
Cc: 'dave.qoodwin@lifetech.com'
Subject; RE: Follow Up: 12/20/2011

Uma,

EXHIBIT PAGE 31
App. 58

Rick:
I called in sick Monday January 28th, 2013 and went home sick Tuesday, January 29,2013 because I am
suffering from work related stress, I would like you to please schedule a meeting with yourself and Alicia
Sharpe to discuss the following:
1.) Do you know I am a whistle blower to the Environmental Protection Agency (EPA)?
2.) Am I being retaliated and discriminated against for this?
3.) Did Alicia Sharpe and Charm Sciences try to persuade me to come work for Charm Sciences? If so, for
what reason.
4.) Do any of my Co workers know that I am a whistle blower to the E.P.A.?
5.) Has some of the HVAC equipment I have been working on, using the word loosely, been sabotaged?
Like the QC Lab RTU, the hot water coil I just installed for the dry room unit and the BL-2 lab RTLI and
exhaust fan as an example?
6.) Am I being specifically videoed and audio taped for being a E.P.A, whistle blower? What I am asking is,
Is there cameras, other than the house cameras, such as possibly in the lunch room or anywhere else
where I am being video and audio taped? If I am being video and audio taped, for what specific
reason?
7.) Is Charm Sciences discriminating against me?
8.) When Henry Lambert went out on workers' comp,, was that staged? If so, for what reason?
9.) Is Charm Sciences working with any of the security companies that are involved in my EPA whistle
blowing case? Such as, Lake H.V.A.C., General Electric or Life Technologies and any other companies?
10.) If this is the case, I don't think this a healthy work environment for my co workers or myself. I currently
hold (7) licenses, most of them are issued from the department of public safety. The expectation from
them is they don't want me to harm or hurt the public or myself. Do to the dangerous equipment I
work on, I don't want to hurt myself or anyone else. Again if I am being singled out, I think this is
making it a very unsafe work environment for me. Because as you know, the H.V.A.C. trade is
dangerous enough, but to work under these circumstances, it makes it extremely dangerous.
I used to work for a security firm in Boston and I have formal training in under cover security work. I
have been involved in this 15 year E.P.A. whistle blowing case, i am a whistle blower, not an informant.
I have 5 different Law firms involved in this for me. I have had 3 Law Firms try to contact the E.P.A. and
1 have contacted them many times myself, to no avail and two others involved indirectly. I have no
open communication with them. I have a pending law suit against the E.P.A. and the Justice
Department, Federal Bureau of investigation (F.B.I.) Boston field office. 1 was forced to quit my former
employer Life Technologies, due to a hostile work environment and it caused me emotional distress. 1
took this job with Charm Sciences after Alicia Sharpe contacted me and Charm Sciences offered me the
job, I was going to take a job with Raytheon, but Charm Sciences offered me $7,00 dollars more an
hour. Currently I have been struggling with work related stress. It's hard to come into work knowing
that my co workers feel uncomfortable about me being a whistle blower and false allegations being
made against me as some type of sex offender and or a pedophile. That's why I lost my cool with Jim
Foley up in the lunch room and lost my cool with Henry Lambert about the hot water coil being
sabotaged. Jim Foley had said a couple of times under his breath i was a chicken hawk. I take real
offense to these false allegations that these security firms are making against me. I will use the word
loosely, but they are trying to frame me as such. I tried to laugh and joke around with you and my co
workers, to make the situation not so tense. I wish Charm Sciences never contacted me, because
personally I like you and all my co workers. This is a very shitty situation for all of us, i cannot work in
this environment. I am filing a worker's compensation claim for emotional distress. So please speak this

EXHIBITApp.
PAGE
42
59

over with the appropriate management and the company Attorney or who ever. Let me know if i am
eligible to go out on workers compensation for emotional distress, or does Charm Sciences want to lay
me off or fire me. I also intend to file a complaint with the Occupational Safety and Health
, Administration (OSHA) for whistle blower retaliation.
Please advise when you and Alicia are available to discuss my concerns.
Thanks,
Irv

EXHIBIT PAGE 43
App. 60

Irv Rounds
From;
Sent: .
To:
Cc:

Subject:
Attachments:
importance:
Sensitivity:

Irv Rounds iroundsmechaniGal@verizon.net]
Tuesday, May 06, 2014 4:40 AM

Joe Marinelli <josephJ_marinelIi@raytheon.oom)
'Jim Southwick'; 'johnJ_abreu@faytheon.com’; 'wiiiiam_christie@raythepn.oom'; 'Mike
Norcia'; 'Michael J Mcdonnell'; 'Scott Mezquita'; ’kjwsjwweils@gmaii.com';
'peter.e.beaumont@raytheon.com'
FW: Reporting Near Miss Environmental Test Lab (ETL)
Background check Irving F. Rounds Jr. Two0001.pdf
High

Confidential
\

Joe:
Can you please forward this E-Mail To Matt Mackenzie or anyone else in Raytheon's E.H.&5.
Thank you,

Irv Rounds
From: Irv Rounds [maiito;roundsmechanica!@verizon,net]
Sent: Monday, May 05, 2014 9:54 PM
To: Joe Marinelli OosephJ_marinelli@raytheon.com)
Subject: FW: Reporting Near Miss Environmental Test Lab (ETL)
Importance: High
Sensitivity: Confidential
Matt:
I see that I had your wrong E-Mail address. The E-Mail came back as un deliverable. Please
review and contact me with any questions.
Thank you,
Irv Rounds

From; Irv Rounds f mailto:roundsmechanical@yeri20n.nefl
Sent: Wednesday, April 30, 2014 10:36 AM
To: 'mathievv_s_mackenzie@raytheon.com'
Cc: 'daniel.j.greene@raytheon.com’; 'Michael J Mcdonnell'; ’Joe Marinelli (iosePh 1 marinelli@ravtheon.comY: ‘Scott
Mezquita'; 'Mike Norcia'; 'william_christ3e@raytheon.com'; 'Jim Southwick'; 3<tonXalweu@raytheon.oom'
Subject: Reporting Near Miss Environmental Test Lab (ETL)
Importance; High
Sensitivity: Confidential

EXHIBIT PAGE 51
App. 61

Matt:
I WQnt to report to you a near mss that I experienced while working in the Environmental Test
Lab (ETL). While working in the ETL last year there was a massive arc f lash explosion. I didn t
record the date but it was approximately around the beginning of October 2013.1 was
instructed to look at an environmental test chamber 0-1 for no cooling. When trouble shooting
it I found the circuit breaker tripping for the low stage compressor on system#!. X reset the
breaker and it tripped again. So I started to trouble shoot that circuit. It didn't Show the
compressor windings shorted to ground. X then observed the contactor points slightly pitted. I
cleaned the contactor points. I allowed the contact cleaner sufficient time to dry. I turned the
breaker back on and reset the breaker. I put my leather gloves on and my safety glasses on
then proceeded to push the contactor in with a screw driver. What happened next was that I
saw the arc flash start in the circuit breaker which back fed the contactor and then they both
exploded, Tack Abreu, William Christie and a few other eo workers came over to see what
happened. They all told me that they saw a massive flash and asked me if I was all right, X said
yes I was all right and I completely down played it. I did get shocked and was shook up but
there were no side effects from it. X admit that I was negligent for not having my rubber
gloves on under my leather gloves, the ear plugs in, balaclava on and my arc f lash hard hat f ace
shield on at the time of the arc f lash explosion. I also admit what I did by pushing in the
contactor live with a screwdriver is not a typically recommended way by the mdustry to trouble
shoot a circuit, but many technicians like myself da use that method. When I went to change
the breaker and contactor I saw what appeared to be a jumper the on the old breaker. There
was so much damaged caused by the explosion it was not possible to say conclusively one way or
the other. When you look in the control cabinet you can clearly see by looking at the burn marks
behind the new circuit breaker that there was an explosion behind it buy looking at the burn
marks on the control cabinet wall. I could have been killed or seriously hurt.

The reason why X have held off for so long to report this near miss, is that X have been trying
to legally get myself out of a whistle blowing case I am involved in. On January 7* 1998 X
reported to the Environmental Protection Agency Criminal Investigation Division located at the
Tampa Florida field office that a former employer of mine Airtron Inc. located at 210 Douglas
Rd E, Oldsmar, FL 34677 was in violation of the clean air act. They wanted me to illegally vent
ref rigerants. They also wanted me to use high pressure sales tactics with their customer base
and keep quiet about customers with severe mold in there air conditioning duct systems. It was
a known fact at that time and to this day how some people can get very sick and in some rare
cases actually die from mold in there ductwork. Another company I worked for along with
venting refrigerants, they also wanted me to exploit the elderly in the form of high pressuring
them into buying air conditioning equipment when it was not necessary and required to do so.
They employed these technicians (called EMTs) and had a telemarketing room (boiler room)
targeting specific elderly people. I have five Law firms involved directly and indirectly and five

EXHIBIT PAGE 52
App. 62

other law firms I have sought legal counsellor regarding this matter. Just to let you know I've
hired several private investigators regarding this matter also. There are two billionaire
brothers David and Charles Koch along with the different companies (including Raytheon) and
their respective security companies involved that have been harassing and stalking me for the
last 17 plus years for no justification except for whistleblower retaliation. They have been
working in coercion and involved in this labor racketeering. I have a pending Law Suit with the
Department of Justice Federal Bureau of Investigation (F.B.I.) Boston field office and the
Environmental Protection Agency (E.P.A.) over the involvement of filing that Whistle Blower
Complaint against Airtron Inc. located at 210 Douglas Rd E, Oldsmar, FL 34677 on January 7th
1998.

Two of my co workers told me in September of 2013 that Raytheon was retaliating against me
for being a whistle blower to the EPA, They told me how the former custodian Jackie and Dan
Greene the El Tech where working under cover for one of the security companies harassing and
stalking me in this ongoing whistleblower case that I have been involved with for over the last
17 years. They told me how they were instructing my coworkers like David Kilbride and William
Christie to say subliminal things to me in the form of pedophilia and sex offender things in an
effort to make me upset. They said that Dan Greene was (using the word loosely) was
sabotaging things such as tripping breakers and having the techs in ETL run the old noisy
vacuum pump in an effort to harass me as examples. I also was told that Jackie was deliberately
doing things like pouring very slippery floor cleaning products on the floor on where I used to
get changed and unchanged into my unif orm in the men's room next to the A/C shop. They also
went on to say that Raytheon was videotaping and audio recording me in the Environmental Test
Lab (ETL), the HVAC shop and other parts of the plants without any legitimate business reason
except to harass me, I am filing several grievances. When I file those grievances, this will give
me the opportunity to defend myself about the disinformation and these very serious false
accusations that are being levied against me for being a sex offender and or pedophile by
Raytheon, Also false accusations that I am an informant for different Government agencies by
Raytheon. The fact is I am not a sex offender and or pedophile and I have no open
communication with any Government Agency and have pending Law Suits respectively against the
Boston F.B.I. field office and the E.P.A. for being a whistle blower to the E.P.A. when I reported
Airtron Inc, located at 210 Douglas Rd E, Oldsmar, FL 34677 on January 7th 1998. Attached
please review a background report prepared for me by one of my private investigators. I take
personal offense to all these false accusations that are being levied against me by Raytheon.

I am filing for several grievances and I am going to mention the arc flash incident as part of the
grievances. This is why I am bringing this to your attention today. I am also going to reguest to
both you and Jim Southwick if I can request some unpaid time off while going through this
grievance process which would be covered under the family medical leave act (FMLA) for work
related stress. I have been suf fering work-related stress because of the way Raytheon has

EXHIBIT PAGE 53
App. 63

been retaliating and discriminating against me for being a whistle blower. I'm not going to
bother to file for a worker’s compensation claim because I had previously filed one with one of
the other companies that has been involved in this whistleblower case. I had previously filed for
emotional distress. I received a veiled threat from one of my coworkers when X was leaving the
building to go home on Friday 4/18/14.1 took it very seriously because of this situation. I now
feel unsafe reporting to work. I have been trying to make the best of this situation and by
being very friendly, cordial and out going to all my co workers. But this has been a very trying
time for me and has worn on me greatly. This is why X have such a poor work attendance record
while being employed at Raytheon, r will Cc you on that E-Mail that I send to Tim Southwick for
the grievances.

Raytheon doesn't have my permission to call me on my home or cell phone regarding this matter
or any other matter, I will only correspond by written regular or electronic mail only. Please
forward any written correspondence to my P.O, Box 1055, Burlington MA only.
Thank you,
Irv Rounds

EXHIBIT PAGE 54
App. 64

Irv Rounds
From:

Sent:
To:

Cc:
Subject:

irv Rounds troundsmechanicat@verizon.net]
Monday, December 15, 2014 4:32 AM
'Dorman, Lance'
'Gilson, Jeremy'
FW: Lance with Davis (interview information for Thursday 10/9 at 10am at Noyes Sheet Metal
)

Importance:
Sensitivity:

High
Confidential

Tracking:

Recipient
'Dorman, Lance'

Read
Read: 12/15/2014,7:41 AM

'Gilson, Jeremy

Lance:
It has come to my attention that Noyes Sheet Metal is working in coercion and collusion with these companies and these
two billionaire brothers David and Charles Koch that have been harassing and stalking me. As mentioned below. One of
the labors at the job site in Waltham MA. Stated that Noyes Sheet Metal has been working in coercion and collusion
with the above mentioned. While i have been working at the Waltham MA job site. He stated that they are saying to the
Waltham Police Department and lying that I stole some copper pro press fittings form a job box from the plumbing
contractor at that specific job site. The labor also went o n to say that Noyes Sheet Metal wanted me to work un safely.
One example was when I first started to work at the Waltham jobsite. Dave Sylvester one of Noyes Sheet Metals
foreman wanted me to work on duct work in an open duct shaft without a safety harness. He said I hope you're not
? hSlghtS'The ,abor said the lo8'c was that theY were video and audio taping me at both the Waltham and
Milford sites. By saying how unsafely I work in general. I told Dave Sylvester at a minimum I need planking to
work in
that the shaft. Which the labor did provide me.
As stated below. I told you how they are trying to frame myself along with one of my friends as sex offenders and or
pedophiles. Now they are trying to frame me as a thief. I specifically asked you if you where working in
coercion and
collusion with the Koch brothers and or any of the companies as stated below. On the E-Mail you sent me on
Wednesday, October 08, 2014 3:20 PM you stated the following: Neither The Davis Companies or Noyes Sheet Metal
have coercion and collusion, none of us even know each other. Good luck on your interview Nil took the job in good
faith based on what you stated that neither The Davis Companies or Noyes Sheet Metal have coercion and collusion
none of us even know each other. I would have not taken the job if I knew that the only reason why the Davis
Companies were hiring me was just to harass and discriminate against me.
itold you that the reason why the Koch brothers are harassing and stalking me, my family and friends. They are
fo,<n n anf $ a kmre f°r SeVe?1 r€aSOnS‘^ tw0 primary reasons are theV know I have an invention that will make
Wow the
,nyent,0n haf SOmethiJgt0 d0 wlth tha
H V.A.C. profession. Their also afraid I am going to
°ntthe? *>; mamputaton of the oil futures market. They manipulate it to keep fuel prices artificial^
S
? V ftimatlon has cost the u s- ec°nomy 4.5 Trillion Dollars. That's with a T! In my estimation the average
price per gallon of regular gasoline should be approximately $1.85 a gallon. The second reason they manipulate it. Is to
pHh
thA? h3Ve US6d thatt°0i in diff6rent Presidential election years. Which swayed the public
i
Tl°nP7°n rt
A Gore t0 lose the Presidential election. The Koch brothers logic for ramping the prices
eLmv nort wv h eCt‘°n' 3510 $3V lf V°U PUt 3n 0i‘man Hke 6e°rge 8ush in office- Geor8e Bush would lower
energy costs. Which in my opinion again cost Al Gore to lose the 2000 Presidential election.
The Koch brothers have stopped me from bringing my invention to market. I can't roll out my invention because of my
involvement in this 17 plus year harassment by the Koch brothers. I originally reported one
company to the

EXHIBIT PAGE 76
App. 65

Environmental Protection Agency for violations of the Clean Air Act while being employed down in Florida in 1998. If I
told you what they did to former sister in-law, my brother in-law, my friend George O’Neil and countless other things.
Along with threats against my life. You would say that’s impossible. But again it’s been in an effort to stop me from
rolling out my invention. That's their motive. They are oil barons. This would cost them lose countless money.
While I have enjoyed working with my different eo workers at Noyes Sheet Meta!. The harassment and discrimination
has become unbearable. Therefore I resign from the Davis Companies effective immediately for this harassment and
discrimination.
Regards,
Irv Rounds
66 Francis Wyman Road
Burlington, MA 01803
CONFIDENTIALITY NOTICE:
The contents of this email message and any attachments are intended solely for the addressee(s)
and may contain confidential and/or privileged information and may be legally protected from
disclosure. If you are not the intended recipient of this message or their agent, or if this message
^af
addressed to Y°u in error, please immediately alert the sender by reply email and then
***** j‘nessa9® and any attachments. If you are not the intended recipient, you are hereby
notified that any use, dissemination, copying, or storage of this message or its attachments is
stnctly prohibited.

From: Irv Rounds [mailto:roundsmechanical@verizon.net]
Sent: Wednesday, October 08,2014 9:41 PM
To: 'Dorman, Lance'
Cc: Thenien, Timothy'
Seiifi^i^fcwFteenttei
(InterVieW information for Thursday 10/9 at 10am at Noyes Sheet Metal)
Hi Lance,
I will give you a call after the interview.
Thank you,
irv Rounds
From: Dorman, Lance rmailto:Jdoiman@davisiteno.romi
Sent: Wednesday, October 08, 2014 3:20 PM

~

*

To: Irv Rounds
Cc: Therrien, Timothy
Impwten^:Wg?

(Interview information for Thursday 10/9 at 10am at Noyes Sheet Metal)

Sensitivity: Confidential
SoSSo

I n' N°VeS Shee' M',al h“e “erCl0n

Regards,

EXHIBIT PAGE 77
App. 66

■* «»" know each Cher.

rnm" of Crash**

Date of Crash

Ms

Where Crash Occurred

^ V hf\\

.
Vehicles ^
AM^ffiSPpnvotvcd! ^

t
Sedimw\lW A2 bfl!aw to mdicatc toe WcalioD or the crash.
If yoo need additional space to describe the crash location, please use Section J onjhe last pa^o cf this form.
A2: Complete this Section if the crash did NOT occur-at an
SECTION Al: Complete this Scctloo If the crash
OR SECTION
intersection:
.
occurred at aa intersection of two or more streets:

Step 3: Please indicate the route, roadway and address where the crash occurred:
The crash occurred on Routeg:
^ at StjEfer Ad^rtspgUinber__ IjSI-------

Step 1: Please indicate the route or roadway where you
ivere travelling when the crash occurred:

on the Street/Roadway known as: |^\'?v"y1TX fT^l.
Name of Roadway/Slrcet

Route?

Sten 2; Please provide as much of the following specific locstCon information as possible:

Step 3: What was the name (or names) of the intersecting
streets?

f50

The crash occurred (estimate number offeet)

feet
of

(indicate direction as N/StjE^V)
a) Mile Marker number

Name of Roadway/Street

Routed

OR: b) Exit Number
OR: c) Intersecting StrcetlRoadway
Name of Roadway/Street

Routes

OR: d) Landmark

1•2aSI.

r

->€7

r Section

r “

4

Number of occupants in vehicle {including yoursdQ;

Vehicle You ^’et:e'1).nviiig^

'"•F:

-?r;

j Was vehicle damage above SI ODD? \jjcs No
Commercial Driver'sUoenscEndoisansnts
N TanfcvtSs^es
X Tank and Hazardous

t EsSk,-* fcSSS.

pjpassaBf
transport

tecabs

liUliaitk your type of Chicle

1 Passenger cor
'Tpiight truck (van. mini-van,
pick-up, spon utility)
3 Motorcycle
FutKN'ame oF Vehicle Oryafr

A Bus (15 or more passengers)
5 Bus (745 passengers)
6 Single-unit truck (2 axles)
7 Singlwinitmick(3ormoreiodes)
(Last. First. Middle)

H^Vj.VO.V. !Lvl7d. k f}Q_
V

S Track/trailer
9 Trucktractorfbobtnil)
10 Tractor/semi-utiiler
11 TractorMoublcs

*________

97 Other
99 Unknown

12 Tractor/triples
J3 Unknown heavy truck
14 Motorhomc/recrcational vehicle

sra^u-s <.

What Was Year Vehicle Doing Prior to the Crash?

4 Turning left
5 Changing lanes
6 Entering traffic lane

1 Travelling straight ahead
Vehicle Travel Direction
f2^Sfowing or slopped
N s\(E W
3 Tumtng right

97 Other
99 Unknown

30 Backing
M Parked

7 Leaving traffic lane
8 Making U-tum
9 Overtaking/passing

Please Indicate the Sequence of Events ns tliey occurred to YOUR Vehicle by writing the corresponding number (1-52, or 97, 99) in up to 4 boxes hdmv.
Whnt happened first?

m

□

Collision with
1 Motor vehicle in traffic
2 Parked tnolorvchiclc
3 Pedestrian........
.................
4 Cyclist
, 5 Animat- deer
1 6 Animat-other
7 Moped
8 Work zone maintenance equipment
9 Railway vehicle (train, engine)
10 OUiermovableobject
1! Unknownmovableobjeet
20 Curb
21 Tree
22 Utility pole

□

□

What happened 3rf (if applicable)?

What happened 2** (if applicable)?

23 Light pole or other post/support
H Guardrail
3 Median barrier
26—Ditdr - ■ - ......... ................
27 EmbankmeotfSloping shoulder

'Vi'hat happened 4^ (ifapplicable?

Non-Collision
40 Ron offroad right
41 Ran offroad left
42 Cross mcdion/ccotcrline
........ *43- -Ovenum/follovcr- — •
.................
44 Equipment failure (blown tiro, brakes, etc)

22
29
30

Highway tr&FFta signpoet
Ovorbood irign support
Fence

45

jPiTCfC7tptOSfon

46
47

Immersion
Jackknife

31 Mailbox

48 Cargo,'equipment loss orshift

32
33
34
35
35

Crash cusliionHrapact attenuator
Bridge
Bridge overhead structure
Other fixed ohjeafwail, building,ttmne!)
Unknown fixed object

49
50
51
52
97
99

JYes

Was yourYcbtdc Towed From *bc Scene Dne to Damage?

Vchide Damaged Area
No

(circle up tD three)

Separation ofunits
Downhill runaway
Ofhernon-collision
tlnknownnen-eotlision
Other
Unknown
2

3

4

O^Nortc

^E^Dr'
U Totaled

97 Otter

)

99 Unknown

EXHIBIT

PAGE 113
App. 67

£

g

£

0M&

Please provide Ihe foil name, addins, and DOB or Age for all passengers in your vehicle. Then write the corresponding code in etch of the bases for each occopant of the vehicle
(yourself and all passengers). A list of the possible codes is provided at the bottom of this section.
Name of
B C D E F G H
Date of | Sex l A
Medical Facility
BirthfAselM/Fl
Driver (See previous page}

|V/\

W
Md

^>UJ~Ur<(jmAt' Am- fri

1 1 410 0 31

Name oFPassenrigori (Last. First, Middle)
Address
City/Town

State

Zip

State

Zip

Sl£tC

Zip

] Name of Fnacngcr 2 (Lost, First, Middle)
Address
City/TouTi
Name of ?asscngcr 3 (Last, First, Middle)]
Address

City/Town

B. Safety System Used
A. Seating Position
9 Third row - right ride
0 None used
1 Front seal - leftside (or motorcycle driver)
10 Sleeper section of csb
1 Shoulder and Jap bsU
2 front seat-middle
it Enclosed posscsiser ores
2 Lap belt only
3 Front seat- right side
4 Second scat - left side (or motorcycle passenger) 12 "Unenclosed passenger area
3 Shoulder belt only
13 Trailing unit
A Child safety scat
5 Second seat - mi ddle
14 Riding on vehicle exterior
5 Helmet
6 Second scat-right side
m Other
7 Third row - left side (or motorcycle passenger)
99 Unknown
SQ Unknown
K Third row-middle
<3 Injured?
£. Ejected From Vehido? K Trapped?
1 Fatal injury
0 Nor trapped
0 Not ejected
Non-fhtal injury:
! Freed by mechanical means
! Totally ejected
5 No injury'
2 Incapacitating
2 Partially* ejected
2 Freed by non-mechanical means
99 Unknown
3 Non-incapacitating
3 Not opplicoWe
99 Unknown
4 Posable_____ ___
99 Unknown

\/

H. Transported for Medical Care?
97 Other
1 Not transported
99 Uatoiowu
2 EMS (emergency service)
S Police

1

Rail
Number of occupants in the Vehicle:

C. Air Bag Status D. Air "Bog Switch
1 Depiqyed-ftoirt 1 Swildi in ON position
2 'Deployed-side 2 SwitchinOFF position
3 Deployed both 3 ON-OFF switch not present
4 Unknown ifswitch is present
front and side
99 Unknown
4 Notdcploycd
5 Not applicable
99 Unknown

Noj Moped?

j Number of injured occupants:

'0 | Hit anti Run?Yesj^No

Yes

\L

H

FnlLName of Vehicle Driver^Lost, First,

4T*r

Insurance Company

G
U
y*
t

U

?7

o izNG'Lxl r\i SkJfBaukw Mo/gefe
____
WWfiSfe'ltSF. \WhIFK^k

Street Ad&pss
.fN

r,

\

^

iVt^pT*O *°~^—^«

/.

Indicate tyjie bf vehicle"............
4
5
C
7

C ^Cffasscngcr car
2 Liglu track (von, raini-ven,
pick-up., sport utility)
3 Motorcycle

_...

Bus (15 or tnorc passengers)
Bus (7-15 passengers)
Single-unit track (2 axles)
Singlcmtit track (3 or more tDdes)

riiiLName of Vehicle Owner (Last, First Middle)

£
9
10
11

i.v .. . .. .—

y

.

l
Vehicle Travel -Wbot Was the VehicVJMfag Prior to lhe Crash?
Direction
7 Leaving traffic lane 10 Backing
‘ &»*** straiobi ahead 4 Turning left
J1 Pari;cd
G Making U-turn
_>N $
2 Slowing or stopped
S Clanging lanes
3 Turning right
6 Entering traffic kmc 9 Ovcrtokiog/passiflcr

fas

I Vehicle Damaged Ares?(circle up to three)
0 None
b. qTfe&ndcrcnmaec
97 Other
II Totaled
99 Unknown
97 Other
99 Unknown __

t Pedestrian

2 QycU«

5 Staior

QT Other

09 Uiftno\vn

Where wns (he non-motorist prior 10 the Crash?
G Median (but no! on shoulder)
1 Merited crosswalk ai intersection
2 At Intersection but no crosswalk
7 Island
8 Shoulder
3 Non-intersection crosswalk
/
9 Sidewalk
4 In roadway
\>>,, 5 Not in roadway
10 Shared-use path or trails
99 Unknown
State
Full Nome of Non-Motdrisl (LosTSF^pt, Middle); |Stra|bAe5n;xs
City/Town

Dmc oFBirtli/Agc l See
M

........................

£

[tlCH

tSr.

Indicate ihe type of non-motorist involved
What vra* the aon-mdtorist doing prior
1 Entering or crossing location
2 Walking, running, or cycling
3 Working
4 Pushing vehicle
5 Approaching or leaving vehicle

.

97 Other
12 Tractoe/triplcs
99 Unknown
13 Unknown heavy truck
14 Motor fcorae/rccreationaJ vehicle

TruckArailcr
Truck tractor (boktafl)
Tractotfscnti-rrailcr
Tractor/doubles

AlXr~g? tor f>A . fSio-hsi t k? h

.. .

F

Safety Equipment?
0 None used
G Helmet
7 Protective pads (elbows, knees, etc.)
f Reflective clothing

to the crash?
6 Working on vehicle
T Standing
97 Other
99 Unknown
*.

rH/
!

9 Lighting
10 Ollier
99 Unknown

A.

Injprtd?
1 /Ratalinjuiy

."yhp-F^tal inhnv;

2 lncapsmtating
3 Nnn-incrmarJt/irinf’

EXHIBIT

5

No iiyury

OP 11ntnmvn

Transported for Medical Care?
97 Other
1 Noi transported
99 Unknown
2 EMS (ctneaieoey service)
3 Police
tf irOtt>iw»rtcd. nleaxc indicate Hftsn*tolWJwTieal FncUlK-

PAGE 114
App. 68

Xp

V*

^sep'gersT

T^C

c in each of the tees for each occupant of flic vehicle
Please provide the fiill name, address. and DOB or Age for all passengers m your vehicle. Thco tmtv uiv wuwcyimwi**
(yoursslTqnd all passengers). A list of tits possible codes is provided m the bottom of this section.
Name of
F G H
Date of Sex A IB C D E
Medical Facility
Bmh/Age M/F
Driver (See pro\ioos*^tgd>

uTl

j Nfimeof Pssscn"crl (Last, Firet. Middle)
Address

i

City/Town

Sute

Zip

^Ststo

Zip

Nome of Passenger 2 (Lost, First, Middle)
AdTftcs*^
City/Town
Name of Passenger 3 (Lest, Fire*, Middle)
Address
City/Town

Stated

Zip ^

B. Safety SystenNi^
A, Seating Position
9 Third row - nght^fe
0 Hone used
^
1 Trent seat - leRside(ormotorcyeledriver)
10 Sleeperserjidnofeab
1 Shoulder and lap belt
2 Feontseat-middle
tl Ztietcf45pes*ei»£» area
2 Lap belt only
3 Front seat-right side
3 Shoulder belt only
4 Second seal - left side (or motorcycle passenger) 12 urfenctosai passenger area
Trailing unit
4 Child safety seat
5 Second scot-middle
14 Hiding on vehicle exterior
5 Helmet
6 Second seat- right side
y
91 Other
99 Unknown
7 Third row*-leftside (ormotorcycleparser)
■99
Unknown
2 Thirdrow-middle
Q. Injured?
E. Ejected From Vehicle? £^*frapjj?d?
1 Fatal injujy
* 0 Ho; crapped
0 Hot ejected
Nnn-faml intnrv:
1 Freed by mechanical means
1 Totally ejected
S No uuuty
2
Incapacitating
2 Freed by non-mecbanleat means
2 Partially ejected
99 Unknown
3 Non-incapacireting
3 Not applicable
99 Unknown
4 Pn«ible
99 Unknown^

\/

V

£

yj
■i \

L

n

L?

&

Number of occupants in flic tfehidoijyLc [ Number of injured occupants:

[above SIOOO? °

°n '■nsvmm i InTh" mmm--’

TSiHdam^of Vehicle Driver (Usi, First, Middle)l (Street Addr«rx

KrsurtxS 'On»Xk

D. Air Bag Switch
1 Switchin OH position
2 Switch in OFF position
3 ON-OFF switch not present
4 Unknown if switch is present
99 Unknown

H. Transported for Medical Care?*97 Other
t Not transported
99 Unknown
2 EMS (cmerECOcy service)
3 Police

Sol Hit and Han? Ycs^j^io
Yes yvNo| Moped? _V*S
—
comroe^^.Driver's License
P Passenger
wwpest
fgfb’p T ~ Poublgraipte
X~ tmte and Handing
Stale
Zip .
CttWTovn,

mugc

OSS

,

C Atr Bag Stntns
1 Deployed-ftont
tN*Dcploycd-side
3 Depi^vedboth
front ano^t4?
4 Notdeployed^
5 Not applicable
99 Unknown

.

___ TC2 Ctdg'P LaN£ Nc^huS

NM

n

Ydiiclc Make

\Sff\ IMmi

Indicate type of vehicle
4
5
6
7

1 Passenger car
2 Light truck (van, mini-van,
pick-up, spurt utility)
3 Motorcycle

Bus (15 or more passengers)
Bus (7-15 passengers)
Singlc-unii truck <2 axles)
Single-unit snick (5 or more axles)

S
9
JO
11

Truck/bailer
Truck tractor (bobtoO)
Ttocrotfecmi-tnulcr
Tractoifdoubles

BPgS

Full&'ame of Vehicle Owner (Last, First, Middle)

tNOL^rT^V , Pfiil^A_________

Vefiiac Travel l^vbnt \Y,as\jieVclticic?,Dobul Prior to the Crash?
Direction
I
7 Leaving traffic lane
1 Travelling straight ahead 4 Turning left
t Making U-turn
3 Changing lanes
N _S
2 Slowing or stopped
E _W
6 Entering traffic lane 9 Ovcrtaklagfposstng
3 Turning right
I Pedesmas
ludiottc the 0"(ic of non-motorist »m*otvcd
Wnut \%Tis the nott-motorirt doing prior to the crush?
6 Working on vehicle
1 Ottering or crossing location
7 Standing
2 WttHtirtc, running, or cycling

97 Otter

4 Pushing v'Ehide "
^
5 Approaching or leaving vehicle

99 Unknown

Date of Birut/Age Sex
M

Full Maine of Non-Motorist (Last. First,lEtft

ftgfit

I Vehicle JJcnip.Rctl Arm {rirde op lo flute)
2
3
4
0 NOUS
/ f\ I
\
10 Undcreaninge
10 Broking 97 Other
l(— W
]J
11 Totaled
II Pa Eked 99 Unknown
V
/T\ J
97 0fltcr
s
7
a
99 Unknown

fnu]

w*.

3 Wo±inn^-^l^_

97 Other
12 Troctor/mples
99 Unknown
13 Unknown heavy truck
14 Molor homefrocrcational vehicle

[tlSgail
99 Unknown
97 Ollier
3 Skater
2 Cyclist
Where vvns the tion-motorist prior to tl*c crash?
6 Median (but not on shoulder)
1 Marked crosswalk ot intersection
2 At intersection but no crosswalk
7 Island
8 Shoulder
3 Mon-intersection cross^pWt'
^ 9 Sidewalk
4 Id roadway
10 Shared*me path or trails
Iwoy
5 Noth
99 Unknov/it
State
City/Town
Street Address

Zip

V

Safety Equipment?
0 Hone used
6 Helmet
7 Protective pads (elbow's, knees, etc.)
S Reflective clothing
.

9 tig)#
10 Qfijgr
Unknown

Injured?
1 Fatal injury
Nnn»fatal lnhirv"
2 Incapacitating
3 Hon-ineapacitaiing
*1

5 No injury
99 Unknown

Transported for Medical Core?
97 Other
T^gt transported
99 Unknown
2 EMtfTbmwBcncv service)
3 Polico
_______
If rranypDrtcdj please iotHc^eJBospllfil/Medictl Fadlily:

Pcotiblc

PAGE 115

EXHIBIT
App. 69

Section^ F: Crash- -Cojiditions
idght Conditions
1 Daj'light
2 Dawn
3 Dusk
<
- lighted roadway
3 Dork - roadway not lighted
C Daik - unknown roadway
>- liglmot:
97 Other
99 Unknown

Weather Gmflifions (up to bra]
M-ciClcar
2 Ctoody
3 Rain
;

4 Snow
5
6
7
S
97
99

Sleet, hail, freezing rain
Foir, smog, smoke
Severe erosswinds
Blowing sand, snow
Other
Unknown

Tjrnffictvfty Description
Q^'Two-way, not divided
Two-way, divided. unprotected median
3 Two-way, divided, protected median
4 One-way, not divided
99 Unknown

School Bus
Related?
1

i

A/,.
2 /V Ko

;
:
;

:

Work Zone
i Related?

Yes

i

Indicate
Non! i by
Arrow"

Traffic Control Device
] No controls
2 Stop signs
*3—$m£nc control signal
4 Flashing traffic control signal
5 Yield signs
6 School zone signs
7 Wanting signs
8 Railroad crossing device
99 Unknown

2 \/No

!

i
!

:

j
1 tT5

IT

T

• ~ yt -

m&

Witness Name (Last, First. Middle)

llll HIBBggHWHBI
[Owner Name (Lost, First Middle)

mn red

.

No

6 Head on
7 Rear to rear
99 Unknown

^3' Angle
4 Sideswipe, same direction
5 Sideswipe, opposite direction

i

i
|

;

U;

i

si

J

;

i
!
■

i
:

i

r#
RS'
;

j.

T

—;

___

i

S

’

Ht---- r-“

Ldj

lUl

Sec(ibn..fji: Witness ■tpfdrma'Ci^n ;

^--^pur-way intersection
-ffT-intefsectioo
4 Y-interaxtion
5 On ramp
6
7
8
9
JO

Offramp
Traffic circle
Five-point cr more
Driveway
Railway grade crossing

99 Unknown

Plente draw a diagram of the
roadway or streets where (he crash
occurred, indicating the verities
invoiced and direction oT travel
using the following symbols:
**Direction
Qj ~ Vehicle 3 (Your Vehicle)
m * Vehicle 2
0 *= Pedestrian/Non-motorisl
-• North

©

Select use of the following if
die crasb did not occur on a
public way:
___ OST-strcct pariurig lot
Garage
___ Moll/shopping center
___ Other private way

’

-i\

Phone

SBcf^ni I; ri’opej-^ DaHiag^Jiifotnialion;(©iforf than Vfelijcles)
Adores;

\£r . t ^

.

Phone

. r-\'rr^----- •'

-r-‘v'

Property* and Damage Description

r - *■-- .. -

- —

Action-J; Description of Wtet lfep'pened '

;0. itl'i .

ikyrsaa*

fu%r~ orx P'M-Qjc'. _____kj&k*
<rfT , i

£g&.

2

Address

~
__________________

•__

‘

Yes

Manner of Collision
l^Singlc vehicle crash
J^ffjtcar-end

plpfe

f
1

A-

■

i

------

V

__Not at mieiscction

C
S Sand, mud, dirt, oil, grov^
6 Water (gandmg,moving)
7 Slush
97 Other
99 Unknown

:

j

!

1

Roadway Interaction Type

- SfgfipH' <Sr -Crash Diagram
I
\
.....----

?

t

Yes

Was the traffic .JLqad Surface
control dewe^* ^I^Dry
functioning sit- t0£“~Wet
the time of the 3 Snow
crash?
4 lee

bjh€yy Jj

/li, K V K "lA .<vA g> > ,-44-G
T
'

March
,L ti\fn;rUA
a ka fomoUS <^,0
Lu

C '**■ ~ ^4- ~T______K
_____________ “
^
—

n-

Secti,c;n'fc Signature
Print,
^Stcneqiindcr PainfTnd HBnaltJcsofPerjun^
y

Sore-, n-A -P_

EXHIBIT

\

page
App. 70

Date

116

3JSpatf.

o

o

Irving F. Rounds Jr.
From:

Sent:
To:
Subject:

■v .

Irving F. Rounds Jr. <Sheehan055@comcastnet>
Tuesday, May 8, 2018 10:03 AM
'belister@aol.cofn’
RE: Email Sent On 3/6/15

Hi Betsy,
As I just told you, I have some very serious Legal issues with the Department of Justice (DOJ) as it relates directly with a
whistle blowing case I’m involved in, raiding Charl«aS(H]iviff KocirA^
private investigators has a source (whistle blower) in the Boston F.B.l. filed office, that states that 2 F.B.I. Agents staged
the car crash with my ex-wife on 3/5/2015. They allegedly staged the car crash so when they sent me that bogus email
the next day, I would click on that hyperlink and then they could then hack into my computer.
I then went to the Massachusetts State Police Detectives Unit in Woburn and spoke with Sargent Bruce O'Rourke about
that and along with other Legal matters regarding my involvement with this whistle blowing case. There is no other
action required by you and or your insurance company at the time. I appreciate you acknowledging that you didn't send
this email.
Thank you,
Irving F. Rounds JR.
246 Beacon Street
Apartment 1
Clinton, (VIA 01510
From: belister@aol.com <belister@aol.com>
Sent: Tuesday, May 8,2018 9:42 AM
To: Sheehan055@comcast.net
Subject: Re: Email Sent On 3/6/15
I never sent this email to you! Somebody used my "NAME" to affix to a bogus email address. The only email
address that I used for business back ih 2015 was 8ELjste@aof.CQm.
fve NEVER bad an email address of that nature; this appears to be a phishing email whereas St was sent to
numerous people.
Betsy E Lister
RgLister@gGl.com
in a mpccagp dated R/R/lOlR q-35-3Q AM Eastern Standard Time.:$hsehan055@comcast.net writes:

Hi Betsy,
.!
'
L
i need to do a follow up question regarding an email sent to me (see screen shot below) on 3/6/15. As we
discussed, this was regarding when at the time I had told you that this email was sent to me the day after 2 cars
deliberately staged a car crash with my ex-wife Suzanne, which was in an effort so I would click on the emails

EXHIBIT

• .

App. 71

i.

PAGE 117

-T~i

FEi

,'“vv*’;->

.

iVUlJXtls

.

8801

l.vi -««

-

sf-r

y
A
. t
• %
4|||:
f \
—&j>
"v~J
l-’&pgr. pjQty/-f3pf$t%" ^eif€
C!v-f; :' stedv
.’
to Aft
‘
’ PcMtet'!' feat* Oeti^ns * Semier
Hi-y-i-'t
J.ltti t~Qf.*K
v.

, .'v*

frost:
tfe;

i Sutteet? .

ivA’.

.Segi3j|wia®ac3.t»Tn;
#fe1arw®ti^ef-t»weff-,net; a«>c3oa«3^€%*»aife^x>day,esKr\:
■ ■ .
-

""

••*.>»»» rf**T •».«.■»*>#...

» ■»>** r

Hi!

How are you?

5

■fr*ss

andy.efn£t®#r'a ”

.

i

< Serert -

f«ffi Betsy itiitef
■ •»or

i

-}

■Betsy.Etrster EcuS^i9dsSd)m^»t«iigu,oMn3
...

Css.

a

.C3i5*gSmKe Poito-.v E.lVr*: S-, ;
U?) * UftieiS

Hav& you £eeir {ttiS:feefore?-feilp:Moofc^a#lteg-;o3Ui?i:foeflm^;$>fiia
pprih liaci feeen ussfig it for over a year!

, SeiSv £ lister
j

*

i
i
i

!

m
m

y

EXHI BIT PAGE 119
3

App. 73

fL 'ddy

•*.

P i§i

V ':/■

'r

%

:-2r.

yrj\

■

a

V

i

EXHIBIT PAGE 121
App. 75

From: iCIoud cloifcieet@posteo.net
Sufopct: [Important]:
roundsmechanicat@verIzon.net You've to
check your Apple-ID.
Date: Aug 28f 2017, 4:19:21 PM
To: roundsmechanicat@verizon.net

iCIoud Support
Your Appie-ID is
b
Attention Please 5 You've to check vour
info in order to continue using Pages,
Numbers, and Keynote ... for Ooud.

.... iMB,......
iCIoud

Jftl SuPP°rt i
EXHIBIT PAGE 192
samir laiou, 2/4S5 Ocean Beach Rd, Urnina
Bea, eiouedi 31000, Aloena
You may unsubscribe c/eb
details at any time.
(
-

V

i

rr \
\
\

L vIk6 PA
App. 76

:sct

Jr
CD n

u h&
OU/H

\]

o

O .

r

rom: Louis Vitielid to13isviti6llo@yahoo.com
Subject: Sign and Return '
Date: Apr 6, 2017,1:52:51 PM
■I

•

Please Sign and Return Attachment!
Louis R. Vitiello, Esq.
Law Office of Louis Vitiello
4 .Redcoat Lane

ample

jif^

X-i

AC« 1 WAc

Fax: 1-388-862-0401
I I

s email contains confidential information from
the office of Louis R. Vitiello, Esq .. This
information is for the exclusive use of the
individual
lal or entity named as recipient. If you are
he intended recipient, please be aware that

distribution or use of the
contents of this email for any reason is
If you have received this email
« 3

0

® notify the sender immediately and
delete this message and any attachments.

AGE 225
App. 77

\<

V'fojaitfi

v •.

I:

3

vrmummmm.

PLEASE DC MLOAD YOUR DOCUM_ JT HERE

•A

v;

•

•

.*; .
••?•••'**•••» *»

'>^••-•5
■

■

%3&>’ -

«*»*!«&»

A^;

'

•'

'

•

- -?£**■?$

* •*

,j^';^fe

' ggyraiSlLfe

‘i'^r^- ■

-KjHa**-

0«*>W*e Document

•v-r.-' «.s .

* *•

: ?■
'-

• H

-am.-g*

■*-■

\

*;

•

•.*«?*!

v

fife.. •-«$&

!

/m

-s-- .-u •••

- %

• :

*

-* • - \

■

■:

■■ite'

..

... . ■ '•**?ss'>*t*v
*£»>*►

-A :}*&$*&•
■i-V*.

•***«&&'
s*.-

<pa

■

•.*

•

'V'-'i

'••• •

'■f??V«'3ff‘ >0£»A; •-.
.#* *.*.*.

■ yy ■ ■’ ■ -,

V* -

.>«.

.•••y

EXHIBIT PAGE 227
App. 79

■>.

>•.

*.

From: irv Rounds
roundsmecl1an1caS@veriz0n.net
Subject: Re: IMPORTANT DOCUMENT
Date: Jun 22, 2018 at 2:25:26 PM
To: Todd Mohr
mtchealharry14@maH.com
Hi Todd,
I just texted Gaytri saying that I have been
receiving some bogus emails. So please reply
back with the correct office phone number
because I tried calling the one that was listed
on the email and it came up as a disconnected
number. Please advise.
Thanks,
Irv Rounds
Sent from my iPhone
On Jun 22,2018, at 1;18 PM, Todd Mohr
<JMfifal@aamtek.com > wrote:
EXHIBIT PAGE 248
App. 80

Hello.
Check the new important document from
Docu Sign OJOUdERE let me know if
you receive it
THANKS,
Dr. Gaytri D. Kachroo
Principal
KLS -KACHROO LEGAL SERVICES, P.C.
236 Concord Ave. Ste 2
Cambridge, IMA 02138
Office; 781-5QQ~?ino
Facsimile: 1^181-555.-0862

EXHIBIT PAGE 249
App. 81

Mobile: 774-232-2865
Miill//Mw.w.kachrooiea3i.rnm/
This message may contain information
which is privileged and/or confidential
under applicable law. If you are not the
intended recipient or such recipient's
employee or agent, you are hereby
notified that any dissemination, copying
or disclosure of this communication is
strictly prohibited. If you have received
this communication in error, please
immediately notify us. Please delete and
empty this communication without
making any copies. Thank you. // Ce
message est confidential, peut etre

EXHIBIT PAGE 250
App. 82

protege par le secret professionnel, et
est a I'usage exclusif du destinataire.
Toute autre personne est par les
presentes avisee qu'fl lui est strictement
interdit de le diffuser, distribuer ou
reproduire. Si vous avez recu ce
message par erreur, veuillez nous en
sviser immediatement et detruire ce
message. Merci.

EXHIBIT PAGE 251
App. 83

r

'.7t»

^ - '*■

Hi Irv: this was a
spam email sent
by someone else
not me! Apologies. This is a
good phone
number for me!
Thanks! Best
Gaytri
f

EXHIBIT PAGE 252

Thanks Gaytri!
App. 84

r%

sJ5. *it *=.

•—

.. S

r

;•

‘•V’

•V

ijzli ; 'j-T. ;;“ "..xu

;

...

*
.

z
>x "V* {.■"

5./>
•:v'••' -

-V

•■i-

'r.

£

:

i

\:

EXHIBIT PAGE 253

Hi lr\r this
App. 85

a

r
m

Message
Fri, Jun 22, 2:15 PM
(odd Monr
Details
IMPORTANT
DOCUMENT
Today at 1:18 PM

Hello,
EXHIBIT PmE 155

Check the new
important document
from Docu Sign
App. 87

o
Irv Rounds
J.S. Wigand, MA, Ph.D.,- MAT, Sc.D. [jwigand@jeffreywigand.com]
Wednesday, August 08, 2018 2:48 PM
irv Rounds
insider@me.cpm; jsWi9and@gmail.com
Re: 1998 Environmental Protection Agency (EPA) Whistle Blowing

From:
Sent: .
To:

Cc:
Subject:

Dust to be clear, I never received any communication I asked for during our telecom exchange
on 30 Duly 2018 at theinsider@me.Com.
'
Now the next matter* I have never received any email or electronic communications from you in
either 2014 or 2011 as you state. I have no evidence on my computer hard drive of these
alleged communications.,
Thank you and good luck.
Quoting Irv Rounds <roundsmechanical@veri20n.net>':
> Hi Oeffi
>
>
>
>
>
>
>
>
>
>
>
>
>
>
>
,>
>
>
>
>
>
>
>
>
>
>
>
>
>
>
>
>
>

I’m just doing a follow up to you ori the email 1 sent you on Duly 29th
with the subject line 1998 Environmental Protection Agency (EPA)
Whistle Blowing and the one sent to you on Duly 30th with the subject
line Privileged Communication.

You told me on Monday Duly 30th to send the email with the subject
line of Privileged Communication to your other email address at
theinsider@me.com which I did. You told me send it to that email
address versus |wigand@jefferywigand.com which I had originally
corresponded with, because you said that they had hacked into that
email address before. I’m not sure who you were referring to? For
today i‘m sending this email to all 3 of your email addresses.

You told me over the phone when you called me on Monday morning Duly
30th, to send that email because you had gone back through -all your
emails and found that you did in fact not send me any of those emails
back and forth starting on Thursday, December 22, 2011 4:13 PM through
Monday, December 22,
2014'll:18 .AM
1

■

The significance to the original email I started sending you on
Thursday, December 22, 2011 at 4:13 PM, was that if it didn't go to
you, then it was manipulated at Verizon’s email servers and re
directed to someone else, when I thought I was then communicating with you

1

App. 88

> you. The other question is, can you please read the complete email
> string and verify that you did in fact not email me the below-emails that I thought I was
corresponding with you, or was it someone else.
>
>
>
> I don’t need you now to have it notarized and get involved in any
> Legal way, except reply back and let me know whether I was emailing
> with you or someone else. I would greatly appreciate your response. I
> originally got the idea from you and another whistleblower to blow the whistle on the
H.V.A.C.
> industry for violations of the Clean Air Act, specifically venting
> refrigerants, exploiting the elderly in the form of selling them
> things that they didn't need by using high pressure sales tactics and
> also to keep quiet about severe mold problems being created by some of
> the HVAC systems that the company I was working for at the time,
> Airtron was installing. The severe mold in the duct systems was making
> some people sick and in rare cases where some people are highly
> allergic to mold, they died. Like a young boy that died in New Port Richey Florida.
>
>
>
> On 5/9/2018 I was forced to file a Lawsuit against Charles and David
> Koch a.k.a. the Koch brothers, which were part owners of Airton at the
> time, United States Government Department of justice, U.S. Deputy
> Attorney General Rod Rosenstein, Special Counsel and former F.B.I.
> Director Robert Mueller and Congressman Robert Goodlatte Chairman of
> the DOl's oversight committee (Civil Action) 4:18-CV- 40066-DHH, As
> you know it is very trying to be involved in these very high profile
> cases, I have been involved with this now for over 21 years and has easily taken 21 years
off my life.
>
>
>
> I would like to thank you in advance for your response.
>
>
>
> Regards,
>
>
>
> Irving F. Rounds DR.
>
> 246 Beacon Street Apartment 1
>
> Clinton, MA 01510
>
> cell (781)-504-8974
>
> Home/Fax (978)-368-8745
>
>
>
>
>
> From: Irv Rounds [mailto:roundsmechanical@verizon.net]

EXHIBIT PAGE 288

3

App. 90

>
>
>
>
>
>

Sent: Monday, December . 2014 11:18 AM
To: 'jwigand@jeffreywigand.com’
Subject: FW: FW: 1998 Environmental Protection Agency (EPA) Whistle
Biowing
Importance: High
Sensitivity: Confidential

>
>
>

> Jeff:
>
>
>

>
>
>
>
>
>
>
>
>
>

My name is Irv Rounds. I am involved in a very high profile whistle
blower case that involves the Koch brothers. Can you please tell me if
this was your E-Mail that was sent back to me on Tuesday, January 03, 2012 2:18 PM?
Or was it manipulated by someone else? I originally reported a company
called Airtron to the E.P.A. for violations of the Clean Air Act. This
thing has snowed balled and morphed into this huge case. If you want
you can give me a call on my cell phone. (781)-504-8974. If it was manipulated by others.
Can you please print this E-Mail. Sign it saying that you did not
originally send it to me. Have it notarized. And either E-Mail mail it
back to me or fax it to me. The fax number is (781)-270-0377.

>
>
>

> Thank you.
>
>
>

> Irv Rounds
>
>
>

>
>
>
>
>

From: irv rounds [mailto:roundsmechanIcal@verizon.net]
Sent: Thursday, Uanuary 05, 2012 5:16 AM
To: *3.S. Wigand, MA, Ph.D., MAT, Sc.D.’
Subject: RE: FW: 1998 Environmental Protection Agency (EPA) Whistle
Blowing

>
>
>

> Thanks leff.
>
>
>

> irv

EXHIBIT PAGE 289

>
>
>

>
>
>
>
>
>

From; J.S. Wigand, MA, Ph.D., MAT, Sc.D.
[mailto:jwigand@jeffreywigand.com]
Sent: Wednesday, lanuary 04, 2012 7:17 PM
To: irv rounds
Subject: RE: FW: 1998 Environmental Protection Agency (EPA) Whistle
Blowing

>
4

App. 91

>
>

> Please note that me cell phone number has changed.
> signature block.

See below at

>
>

> Quoting irv rounds <roundsmechanical@verizon.net>:
>

» Hi 3eff,
»
»
>>

>> I want to thank you for getting back to me. My hope is that the EPA
>> will
> sit
» down and talk with me to help bring this to a conclusion. If not I
» intend
> to
>> make a legal maneuver. Either way once this does go public there is a
> couple
>> of things you could assist me with* Hopefully this will be within the
» next couple of weeks. I will call you on your cell phone number (843) 367-4200.
> I
» am looking forward to speaking with you.
»
>>
>>

>> Thanks,
>>
>>
»

>> Irv Rounds
»

» From: 3.S. Wigand, MA, Ph.D., MAT, Sc.D*
> [mailto:jwigand@jeffreywigand.com]
>> Sent: Tuesday, Danuary 03, 2012 2:18 PM
>> To: irv rounds
» Subject: Re: FW: 1998 Environmental Protection Agency (EPA) Whistle
> Blowing
>>
>>
>>

>> How can I help??
>>

EXHIBIT PAGE 290

» How can 1 contact you??
»
»

» Quoting irv rounds <roundsmechanical@verizon.het>:
»

»> Hi Jeff,
>»
>>>
>>>

»> I am sorry to bother you around the holiday's, but if you could
»> please
» give
>» me any help with my Whistle Blowing case I would really appreciate
s

App. 92

»> it. I
>> am
>>> just trying to get my story out. It is a very long in-depth complex case.
» As
>>> unbelievable as it might appear, I have had (3) different Attorneys
>>> try
> to
»> contact the E.P.A., specifically the original Special Agent Dan
>>> Green who coerced me to come forward under the pretense of complete
>>> immunity and a full witness protection program. This was based on
>>> threats I had received over the phone and in my mail box and the actual sheer size of the
case.
> I
»> intend to lay it all out in full detail when I go public. Any
>» support you could provide me regarding this matter would be greatly appreciated.
>>>
>»
>>>

>>> Thanks,
>»
»>
>>>

>>> Irv Rounds
>»
>>>
>>>

»>
>>>
>>>
>>>

From: irv rounds [mailto:roundsmechanical@verizoh.net3
Sent: Thursday, December 22, 2011 4:13 PM
To: ’jwigand@jeffreywigand.com’
Subject: 1998 Environmental Protection Agency (EPA) Whistle Blowing

>»
>»
»>

>>> Hi leff,
>»
»>
»>

>>> My name is Irv Rounds. You originally inspired me to report my
>>> former employer I used to work for in
» [Truncated Text]
>

> D.S. Wigand, MA, Ph.D., MAT, Sc.D.
>

> CONTACT INFORMATION:
>

> SMOKE-FREE KIDS, Inc.
> PG Box 527
> Mt. Pleasant, MI 48804

EXHIBIT PAGE 291

>

> (989) 772-4063 Office
> (989) 779-8730 FAX
> (989) 854-6262 Cell
>

> Web Site:
> www.jeffreywigand.com
> www.smokefreekids.org
>
6

App. 93

>
>
>
>
>
>
>
>
>
>
>
>
>
>
>
>
>
>

theinsider@me.com
"Few will Have the greatness to bend history itself; but each of us
can work to change a small portion of events, and in the total of
these acts,.will be written the history of this generation."
R.F. Kennedy
NOTICE:
This communication may contain privileged or other confidential information.
If you are not the intended recipient, or believe that you have
received this communication in error, please do not print, copy,
retransmit, disseminate, or otherwise use this information. In
addition, please indicate to the sender that you have received this
communication in error and delete the copy you have received.
Thank you.

3.5. Wigand, MA, Ph.D * y MAT, Sc.D.
CONTACT INFORMATION:
SMOKE-FREE KIDS, Inc.
PO Box 527
Mt,Pleasant, MI 48804
(989) 772-4063 Office
(989) 779-8730 FAX
(989) 854-6262 Cell
Web Site:
www.j effreywigan d.com
www.smokefreekids.org
E-mail:
jwigand@jeffreywigand.com
j swigand@gmail.com
theinsider@me.com
"Few will have the greatness to bend history itself; but each of us can work to change a
small portion of events, and in the total of these acts, will be written the history of this
generation
R.F. Kennedy
NOTICE:
This communication may contain privileged or other confidential information. If you are not
the intended recipient, or believe that you have received this communication in error, please
do not print, copy, retransmit, disseminate, or otherwise use this information. In addition,
7

EXHIBIT PAGE 292
App. 94

> E-mail:
> jwigand@jeffreywigand.com
> iswieandfflemail.com

EXHIBIT PAGE 293
App. 95

MAY, 21.2012 12:50PM
i

LCMCGIMI7 SECRETAR

NO. 222

MLaliey
CL! NIC

GIM Station 7 at Lahey Burlington
41 Mall Road
Burlington. MA 01805
(781) 744-7000
05/21/2012 11:11AM
2273454

i
I

IRVING ROUNDS
66 FRANCIS WYMAN RD
BURLINGTON.MA 01803

i
LisaAnastos, Esq.
63 Shore Rd. Suite 24
Winchester, MA 01890
Re: living Rounds Jr
lahey #2273454
pear Atty. Anastos:
I am'writing you regarding Mr. Rounds, with his permission.

!

j
Sincerely yours,
deny M. Blaine M.D. . .
Electronically signed by MERRY BLAINE, MD; May 21 2012 11:11AM

i ,

l-

EXHIBIT PAGE 295
1 ofl

Patient Letter

Printed S/21/1211:11:39 AM

App. 96

P. 2/2

Irving Rounds
1/4/12 First Session — Presenting Problem: Mr. Rounds is a 49 year male who had to
leave his previous employment due to work related stress and he has an ongoing workes’
compensation claim. The client related in detail the events at his last employer, which
led to the stress, which made it impossible to remain at his job. The client related that he
has had a longstanding Whistle Blower case with the EPA. The case has been pending
for years, however, the client appears to be able to handle that stress. However, when his
manager at his last place of employment wanted him to lie to OSHA about OSHA’
regulations the company was violating he refused and bis work environment became a
hostile one which resulted in the stress which eventually led to his filing a workers’
compensation claim. The client also related that that his manager and coworkers had
somehow found out that he was a Whistle Blower for the EPA. The client also related
that he suspected a coworker was an undercover FBI agent..
1/18/12 Saw client for the second time - we discussed his mood. He related that his
stress had abated since he had left his last job and he was optimistic about finding new
employment. He denied being depressed or anxious and lie noted that he was feeling
more positive about his future and that he was exercising and losing weight. The client
did note that the ongoing workers’compensation case was a concern, but he was handling
the stress from that issue.
1/25/12 Met with the client for the last time today for half a session. I told the client that
his stress appeared to be well under control and that he was not presenting with any
symptoms which would justify continued treatment. The client agreed and he said he
was fairly certain that he would shortly be starting a new job that, due to the distance,
would not make it possible for him to continue therapy with me. The client had asked me
to complete a report regarding his treatment for work related stress. This report was to be
given to his attorney in preparation for his workers’ compensation case before the
Industrial Accident Board. I told the client that I could not do that as I had never treated
him for that stress and that he was not showing signs of it when he presented for
treatment. I noted that I did not doubt that it had been a very stressful time and that it
was the reason he had to leave his job, but I could not write a report about something I
never treated him for.We agreed that this would be our last session and I urged the client
to return to therapy, with me or someone else, if he felt he needed the support.
Michael E. Foran, LICSW
7 Kent Street
Brookline, MA 02445

EXHIBIT PAGE 296
App. 97

The Commonwealth of Massachusetts
Department of Industrial Accidents
DEVAL L. PATRICK.
Governor
TIMOTHY P. MURRAY
Lieutenant Governor

PHILIP L. HILLMAN
Director

<ADDRESS>
Employee: IRVING ROUNDS JR
Employer: APPLIED BIOSYSTEMS BEDFORD
Insurer: FEDERAL INSURANCE COMPANY
D.I.A. #: 3499011
ORDER OF PAYMENT S34
This claim for compensation came before me for conference under the provisions of M.G . L. c.152, § JOA, on
October 10,2012, at Boston, Massachusetts. The claimant was represented by LISA A ANASTOS ESQ and the
insurer was represented by MEREDITH P RAINEY ESQ.
Based on information submitted at the conference, 1 order the insurer to pay the claimant temporary total incapacity
compensation under M.G.L. c.l 52, §34, at the rate of $912,60 per week based on an average weekly wage of
$1,521.00 from December 19,2011 to February 27,2012, plus medical benefits under the provisions of M.G.L.
c.152, §30.
There will be no impartial as the parties opted out .
For injuries arising on and after November 1, 1986, the insurer is ordered to pay a fee to employee counsel pursuant
to M.G.L. c.152, §13 A, in the amount of $1,563.91, plus expenses.
For injuries arising prior to that date, the fee paid to the employee’s attorney shall be subject to an agreement
between the employee and his attorney; provided that such fee shall not exceed twenty percent of the aggregate
retroactive compensation award.
For claims filed on or after December 24, 1991 where payments of any kind have not been made within sixty days of
claim, the insurer shall pay interest at the rate of ten percent per annum on all sums due from the date of receipt of
the notice of claim until the date of payment of this order.
For injuries occurring on or after December 24, 1991 the insurer may withhold the employee’s share of the attorney's
fee m accordance with the provisions of §13A(10) and the relevant provisions of452 C.M.R 1.02.
If this is an amended or corrected order and you appealed the original order, please re-appeal this corrected
order, indicating that a check was sent in with your previous appeal.

EXHIBIT PAGE 297
www.mass.gov/dia

App. 98

V

Any party aggrieved by this Order shall have fourteen days from the filing date of such Order within which to file an
appeal for a hearing pursuant to M.G.L. c.152, §11. Such appeal shall be filed with Department 121, Department of
Industrial Accidents, 1 Congress St Suite 100, Boston, MA 02114-2017.
The parties shall be responsible to confirm within the fourteen day appeal period, that their conference
submissions have been correctly entered into the Department’s Document Management System.
RSL/inv
Filed on October 11,2012
ROGER S LEWENBERG
Administrative Judge
Department of Industrial Accidents

<CC>

EXHIBIT PAGE 298

App. 99

Case Number. 100616330195
Hi Irving
This is Marilyn . I am a Senior Advisor with Apple Phone Support.
I just wanted to send you a quick thank you, for taking the time to speak with me today.
If you have any questions, my phone number is
877-203-0418 ext. 1161364 and my hours 1:00pm-10:00pm (central)
Saturday, Monday, Tuesday, Wednesday and Thursday
(Off: Sunday & Friday)
You may respond to this email without changing the subject line, if that's more convenient.
If you need immediate assistance and I am not available, please contact Apple Support directly at: 1-800-MYAPPLE (1-800-275-2273)
Thank you and enjoy your day.
Marilyn Pangeiirian
Apple, Inc,

0ft
*!zs4345841*!ze
*!zs4349321*!ze
*!zs4350372*!ze

EXHIBIT PAGE 310

ii

App. 100

(972)358-3658
Thank
9:58 AM

rior7S*+-

psreoan^v
%lK>/l T

0aJ

(650) 204-893
View your receipt from
© 6 ©

8:56 AM

Ferguson Dan
Attachment: 1
Audio Fife
i EXHIBIT PAGE 311
8:46 AM
App. 101

Text Message
Today 8:56 AM

View your receipt
from DANDILLC:
Tap to Loa
Preview
clover.co
m
i EXHI-itT PASS 312
App. 102

KJ

»*

l

*
i

i

!

>

r*

IS

:

lis |

is “ ss a

‘ 5 ST ° ' 5

ill's
.rr <nt§Ssssis
s:
S P lg

I

£wi§8 o
d £££“1

EXHIBIT PAGE 399
App. 103

!Ill 111
2 =r 5* £. ZV ^ o

S'
* % S S 2sS
X’ W y n
a» 3 n>

sillsos
ffi «r n* s §

COMMONWEALTH OF MASSACHUSETTS

SUFFOLK,SS.

SUPERIOR COURT
CIVIL ACTION NO.

IRVING F. ROUNDS
Plaintiff

)
)
)
Commonwealth Of
)
Massachusetts Governor
) •
Charlie Baker, Maura T. Healey) “ XWilliam F. Galvin, Public
)
Records Division
)
Defendant(s)

|??f §■!

COMPLAINT

| a! It-*

a-w-^

sgsSgS
3 r?:®c

s

Ci

•->£,

5 n g- o a sf

if sII?
> ? ■§ CL O *

1. Plaintiff is an individual who resides at 246 Beacon StreetApartment 1, ClintonpM'A 0@L0 <£•
o£ =| £
2. The Defendant(s) Commonwealth of Massachusetts Governor officer Charlie Befilgf, Crramd'nw^althg 5£ ™ I §.
of Massachusetts Attorney General officer Maura T. Healey, Commonwealth of Maisachu^tts^sa
g § f? 5r o
Secretary of State officer William F. Galvin, Commonwealth of Massachusetts PublicSlecc^s Duji$pn 2 ^ ^ 11
COUNT1
(Equitable relief)

:.n f

S.
5s
2
1

11. % 5.»§
..

o

o *" •§ o % ™

ro
K>

:•>
-- if <5: o =r =f P
3. Paragraphs 1 and 2 are incorporated herein by reference.
g
° ^ > E
4. The Plaintiff requests that the Defendants use all of their jurisdictional and statutory powers to have „ s. g ? § °
The Clinton Massachusetts Police Department, Massachusetts State Police, Burlington Massachusetts & g- 3. | 5 3.
Police Department, Waltham Massachusetts Police Department and Framingham Massachusetts Policed « o < |
Department furnish me the records I have been requesting (see attached requests to the RAO's and 8« g 53 f
exhibits and CD ROM. I have not received these reports and records from these municipalities.
§' g £ E
$
5. The Plaintiff makes these requests for not only legitimate concerns for my safety but others. I have ~f 3- 3 s j® Sj
two Lawsuits in Federal Court (see attached CD ROM) and a request for a Police Report filed with the S’ S. •< g | 3
Clinton Massachusetts Police Department (see attached) where I have alleged a Department of Justice | S; « 2 3 |
(DOJ) manager has been relentlessly harassing, stalking, threatening and intimidating me for the reason^ § §. s £ >
explained in the attachments.
g*' if !i I 5 1
6. The Plaintiff needs these Police Reports to not only substantiate that claim, but to get his complete 3 J? 55 5
personal information to file a restraining order against him personally (not as an Agent for the US
«§ IJ= ?r«»«»£r °
Government) and to file a complaint to have the DOJ manager in question, have his firearm license
revoked because of his unstable behavior towards me.
Z S’ I- o 31
R n

3 t

Wherefore, the Plaintiff prays that the Court order these Massachusetts State Agencies to provide the i: 3 S; ^ | g
Plaintiff these records that he is seeking.
^ 3 Jos

5IfIi s

The Plaintiff further requests that the Court cite Attorney Angela M. Puccini from the Commonwealth og1 ^ § S’ 3 §
Massachusetts Public Records Division for Attorney misconduct for reasons as outlined in the
J ™ %.■ |[ g “
attachments.
' |i||8 S

; if Hi
lists?
K 57 o' 3 S’ 3
O ? O)
^ =♦?
77; Q 3 rt>
cu
m S. o P- 3 o

P 2 g

App. 104

§

oq

5‘

00

=r
&
o>
VI

COMMONWEALTH OF MASSACHUSETTS

SUFFOLK,SS.

IRVING F. ROUNDS
Plaintiff

SUPERIOR COURT
CIVIL ACTION NO
1984CV03692
>
)
)

Commonwealth Of
Massachusetts Governor
)
Charlie Baker, Maura T. Healy)
William F. Galvin, Public
)
Records Division
______ Defendant(s)__

)■

PLAINTIFF'S MOTION FOR RECONSIDERATION
ON ORDER OF DISMISSAL

1.) Plaintiff is an individual who resides at 246 Beacon Street Apartment 1, Clinton, MA 01510
2i™ DeJendant(s) Commonwealth of Massachusetts Governor officer Charlie Baker, Commonwealth
o Massachusetts Attorney officer General Maura T. Healey, Commonwealth of Massachusetts
Secretary of State officer William F. Galvin, Commonwealth of Massachusetts Public Records Division

MOTION 4

3. Paragraphs 1 and 2 are incorporated herein by reference.
4.
The Plaintiff files a motion
for reconsideration
on
££
exhibits
99 and 1O0shovTgTh*
Commonwealth s Superior Court if the Plaintiff wasn't "satisfied" with the final ruling of the
admmistratjon appeal (see "Request for reconsideration SPR19/1281" dated October 16, 2019 attached
to the Complaint as Exhibit 99 and 100).
L°n HC^°ber 1'2019'Stephen W‘Shorey' Esc^-' First Assistant Director of the Commonwealth's Public

CoMsintiwSXSbjrslLTC1W°,ema"haret°35““13nd EXhibi*95°,the
We will treat your July 17 email, in conjunction with your below email, as a request for
SPR^lSinoTi0? Lhe attaCfheduJUt!Y 10 detGrmination-" <The email ^rther references Secretary Galvin's

Complaint)) provides at "Actions:2" the following:
custodian "SSarV' additi°nal time may be granted as a®reed uP°n by both the requestor and the

App. 105

records

9.1 have complied with the time provision for filing the Complaint.
10.The Plaintiff's original complaint didn't clearly specify and state in clear detail to the Court exactly
what the Plaintiff needs from the Defendants to protect the Plaintiff and the public's safety.
11.The Plaintiff requests that the Court allow this motion so that the Plaintiff may file a motion to
amend his complaint
12.The Plaintiff will now address the order of dismissal on citing the three Attorneys:
13. Attorney Rebeca S. Murray, Supervisor of the Massachusetts Public Records Division destroyed
public records (the emails I sent to her for my "Request reconsideration SPR19/1281 October 16,2019").
She destroyed all three (3) of them at the same time (see exhibits 71,72,73) on Saturday September 6,
2019. She then made a ruling denying my reconsideration without reading the evidence in those emails.
14. Attorney Angela M. Puccini called the Plaintiff on June 19, 2019 and told thePlaintiff that there was
a mechanism for referring this matter to the Attorney General's office; the matter would have to be
prosecuted by her office. On an email she sent to me on September 16, 2019 (see exhibit 24) she
contradicted her earlier suggestion that there was a legal mechanism exclusive of her office (l.e. I could
not proceed on my own).
15. Attorney General Maura T. Healey was carbon copied (Cc) on multiple emails and sent emails in
which she never replied. Ms. Healey then replied to the final email which 1 sent to her on November 21,
2019 (exhibit 1) 5 minutes later (see exhibit 81) only after I threatened to file a complaint in Court. She
had total disregard not only for my safety but the public's safety by not having anyone further
investigate this matter relative to the behavior of the DOJ official.
16. On November 12, 2019 I received a response to my Complaint filed with The Board of Bar Overseers
relative to the above-named counsel in paragraphs 13-15 (see copy of letter attached hereto as Exhibit
3). The Board suggested that I address my Complaints with the Superior Court.
17. The Court, in its ruling of 12/10/19 relative to the Defendants' Motion to Dismiss, noted:
'The Defendant has not withheld documents from the Plaintiff but instead state that no such
document exists. The Court has no remedy iri this instance ..."
The Plaintiff respectfully dissents. As provided in M.G.L., C. 66, s. 10(A)(c)(finai sentence):
'The Superior Court shall have all remedies at law or in equity..
In this instance, it is clear from the evidence submitted by the Plaintiff that the Plaintiff has conducted
several communications with the Town of Clinton, Massachusetts Police Department. Furthermore,
Detective Schmidt of the same Department has admitted to having communicated with the Town of
Burlington, Massachusetts Police Department and the Plaintiff's counsel relative to the Plaintiff's record
requests. There can be no doubt that the Town of Clinton, Massachusetts Police Department has either:
1. Deliberately refrained from creating a police record in this matter for some unknown reason, or
2. Concealed a record, again, for some unknown reason.
With this in mind, I formally request that the Court conduct an evidentiary hearing relative to the
existence and/or concealment of a police report from the Town of Clinton Police Department. There can
be no doubt that the Court, sitting in equity, has the authority to do so.

I request a hearing.

App. 106

PRAYER
WHEREFORE, plaintiff prays that this Court allows this motion for reconsideration.

u *\<c

Date

Irving F. Rounds-JrT^Hy /
Initials
/

i

<7

7.

i.y r >

-

Certificate of Service

I, Irving F. Rounds, Jr. do hereby certify that I gave notice today of the within Motion to all Defendants
by forwarding a copy of same to Assistant Attorney General Robert Quinan by mailing a copy to One
Ashburton Place, Boston, MA 02108.
December 17, 2019.

IrYing F. Rounds, Jr;

I wjcftZ
fi

Dated: 12/17/19 Irving F. Rounds Jr.

1
i

/

V f1/

♦

\

App. 107

T7

..•si

Irv Rounds
From:
Sent:
To:
Cc:
Subject:
Attachments:

Shorey, Stephen (SEC) [Stephen.shorey@state.ma.us]
Tuesday, October 01,2019 4:32 PM
roundsmechanical@verizon.net
Puccini, Angela M (SEC); Stewart, Gregory (SEC); SEC-DL-PREWEB
RE: Report Incident On 11/24/18 At Anytime Fitness Clinton MA
spr191281.pdf; FW: Report Incident On 11/24/18 At Anytime Fitness Clinton MA (9.57 MB)

Sensitivity:

Confidential

Mr. Rounds,
Please find attached a July 10,2019 determination from this office. Also attached is an email chain that includes a July
17,2019 email in which you raise issues regarding the existence of the report at issue.
As described in the July 10th determination, this office found that based on the Department's June 19th supplemental
response, the Department met its burden in responding to the request
We will treat your July 17th email, in conjunction with your below email, as a request for reconsideration of the attached
July 10th determination. This office will issue a determination in accordance with this Supervisor of Records Bulletin:
https://www.sec.state.ma.us/pre/prepra/significant-interest/SPR-Bulletin-04-17-Timeframes-for-Reconsiderations-3ndln-Camera-Reviews.htm.
Best,
Steve
Stephen W. Shorey, Esq
First Assistant Director
Public Records Division
Office of the Secretary of the Commonwealth
One Ashburton Place, Room 1719
Boston, MA 02108
Ph: (617) 727-2832
Fax: (617) 727-5914
From: Irv Rounds [mailto:roundsmechanical@verizon.net]
Sent: Wednesday, September .25, 2019 4:36 PM
To: Puccini, Angela (SEC)
Cc: stephengcrowne@yahoo.com; 'O'Rourke, Bruce E (DAA)'; mward@clintonma.gov; mdziokonski@clintonma.gov; SECDL-PREWEB; Rastellini, Patricia (SEC); SEC-DL-PREWEB
Subject: RE: Report Incident On 11/24/18 At Anytime Fitness Clinton MA
Importance: High
Sensitivity: Confidential
Dear Ms. Puccini,

EXHIBIT 1

I would like to respond to your email response dated September 16, 2019 point by point.
1.) On the afternoon of June 19, 2019 you called me and we discussed this matter. One of the things that I
brought up was that 1 had concerns to date that the Clinton Police Department had not been forthcoming
regarding this matter. I had told you that if the Clinton Police didn’t give me the Police Report I had been
seeking, I was going to file a criminal complaint with the Massachusetts Attorney General's office. You stated

EXHIBIT 95
App. 108

SPR Bulletin 04-17
TO: Records Access Officers and Requestors of Public Records
-SUBJECT:-Timeframes for.the.Supervisor.of Records to.Complete.Reconsiderations of. Determinations _
arid In Camera Reviews of Records
EFFECTIVE DATE: January 1, 2018
EXPIRATION DATE: Until superseded
PURPOSE: This bulletin sets forth timeframes for the Supervisor of Records to complete reconsiderations of
determinations and in camera reviews of records.
BACKGROUND:
The Public Records Law and its Public Access Regulations (Regulations) were updated with changes effective
January l, 2017. Among other things, the updated law requires the Supervisor of Records (Supervisor) to issue
a written determination regarding any petition submitted In accordance with section 10A of chapter 66 not later
than 10 business days following receipt of the petition by the Supervisor. However, there are no Statutory
timeframes for the Supervisor to issue rulings on reconsiderations of these determinations or in connection with
in camera reviews of records.
FINDINGS:
.1. A requestor may petition the Supervisor for failure by a records access officer (RAO) to comply with a
requirement of section 10 of chapter 66 dr 950 C.M.R. 32.00. G. L. c. 66. S 10A:.see aiso 950 C.M.R.
32.08(1).
2. The Supervisor may require an inspection of the requested record(s) in camera during any investigation or
any proceeding initiated pursuant to 950 C.M.R. 32.08 or require a detailed description of the record(s)
with respect to claims of attorney-client privilege. G. L. c. 66, § 10A(a); 950 C.M.R. 32.08(A).
.3. the Supervisor must issue a written determination regarding any properly submitted appeal petition no
later than 10 business days following receipt of the petition by the Supervisor. G. L. c. 66, § 10A(a).
4. The requestor or RAO may file a request for reconsideration of the Supervisor's determination issued
pursuant to G. L. c. 66, § 10A(a) within 10 business days of the date of the Supervisor's determination
letter.
ACTIONS:
1. Jhe Supervisor must.isSue a written determination regarding any timely request for reconsideration of a
Supervisor’s determination not later than 15 business days foilowing receipt of the reconsideration petition
by the Supervisor: If necessary, additional time may be .granted as agreed upon by both the requestor and
the records custodian.
2. The Supervisor must complete an./n camera review of records, or of the detailed description Of records
withheld pursuant to the attorney-client privilege, and issue a Written determination regarding the records
not later than IS business days following the Supervisor's receipt of said records or detailed description. If
necessary, additional time may be granted as agreed upon by both the requestor and the records
custodian.
Questions regarding this Bulletin should be directed to:
Public Records Division
One Ashburton Place; Room 1719
Boston, MA 02108
Phone 617-727-2832
Fax 617-727-5914
Einail oreioisec.state.ma.u:
wwwisec.state.ma .us/ore

EXHIBIT 2

William Francis ‘3e*vi:i, i rrc.ory

:"'.1r , •rsrncnuoc.tt;

Terms and Conditions
Accessibility Statement

EXHIBIT 98
App. 109

and the public as a whole. Also let Mr. Barr know that I would
like to settle this legal matter out of court, if the DOJ is interested.
In closing, if both of you and your respective offices continue to
let this man threaten myself, family, friends, my neighbors who
live directly above me Autumn Jones and her two twin one year
old sons Bentley and Landon, my other neighbors that live around
me and the public as a whole, I will take the following actions:
I will start a petition to have both of you impeached for
malfeasances along with the Secretaiy of the Common wealth
William Francis Galvin and have both Ms. Healey and Mr. Galvin
cited to be disbarred for engaging in fraud which impeded the
administration ofjustice regarding this legal matter.
I will also initiate a class action lawsuit against the commonwealth
of Massachusetts for not taking legal actions after reporting to
Lieutenant Bruce O’Rourke of the Massachusetts State Police
Detectives Unit in 2015 twice against the Koch brothers for the
fraud perpetrated against the Commonwealth of Massachusetts for
manipulation of the oil futures markets and has cost the
Commonwealth of Massachusetts billions of dollars in higher
energy costs. This topic was brought up in our meetings when we
met about my ex-wife’s staged car on March 5, 2015 by DOJ.
Finally I will then go public and tell any and all parties and
entities successfully prosecuted by any Commonwealth of
Massachusetts law enforcement agencies for the last 22 years to
have all the cases put under review, as what happened with former
Massachusetts State Police lab chemist Annie Dookhan.
I will then say that the 22 years are based on my involvement with
this legal matter with the Department of Justice (DOJ) coupled
with the fact of complicity and improprieties of the Massachusetts
Attorney’s General Office with the DOJ along with the
2

App. 115

Massachusetts Superior Court, the upper management of the
Massachusetts State Police, Burlington, Framingham, Waltham,
Clinton and Lancaster Massachusetts Police Departments.
I have attached all the documentation (see attached) for your
reference and I have carbon copied (Cc) different parties including
five news agencies, two organizations and Nancy Alfonzo from
Senator Edwin Marky’s office. Please advise.
Regards,
Irving F. Rounds Jr.
246 Beacon Street
Apartment 1
Clinton, MA 01510
Cell 781-504-8974
CONFIDENTIALITY NOTICE:
The contents of this email message and any attachments are
intended solely
for the addressee(s)
and may contain confidential and/or privileged information and
may be
legally protected from
disclosure. If you are not the intended recipient of this message or
their
agent, or if this message
App. 116

1

has been addressed to you in error, please immediately alert the
sender by
reply email and then
delete this message and any attachments. If you are not the
intended
recipient, you are hereby
notified that any use, dissemination, copying, or storage of this
message
or its attachments is
strictly prohibited
Sent from my iPad
Begin forwarded message:
From: In/ Rounds <roundsmechanical5(5>gmail.com>
Date: July 27, 2020 at 4:40:56 PM EDT
To: kschmidt@clintonpd.com. bruce.e.o’rourke@state.ma.us
Cc: melissa.iuarez@iud.state.ma.us. Robert Quinan <robert.auinan@mass.gov>. ago
<ago@state.ma.us>, Charlie.baker@state.ma.us. christopher.s.mason@state.ma.us,
cisOsec.state.ma.us. Stephen Crowne <stephengcrowne@vahoo.com>. Brian Coyne
<bcoyne@clintonpd.com>. chief@clintonpd.com. cvnthia.voung@usdoi.gov.
ieffrev.a.rosen@usdoi.gov. lindsev graham@graham.senate.gov.
william.p.barr@usdoi.gov. mward@clintonma.gov. Andrew.Lelling@usdoi.gov.
nancy afonso@markev.senate.gov. press@blaclivesmatter.com.
info@betterstudio.com. Ietterstoeditor@bostonherald.com. tips@boston.com.
letters@washpost.com. nvtnews@nvtimes.com
Subject: Report Incident July 24,2020 Fwd: 1984CV03692 Rounds, Irving F vs. Baker,
Governor Charlie et al

Dear Detective Schmidt and Lieutenant O’Rourke,
I formerly file a police complaint to both the Clinton
Massachusetts and Massachusetts State Police
Departments to file a motor vehicle assault charges
against the man going by the name of Richard Ciruolo
4

App. 117

that has been threatening and harassing me as stated in
this email thread (string) below.
I will summarize the events of the incident of what
transpired on July 24, 2020. It is as follows:
At approximately 7:30 PM Eastern Standard time on
July 24, 2020 Mr. Ciruolo started following me in a car
while I was driving north on route 70 on Main Street
Clinton Massachusetts starting at the corner of Roma
and Main Street until I turned into the laundromat and it
appeared that he continued to drive straight on route
70.

At approximately 7:45 after putting my laundry into the
washing machines, I left to go to my bank. While
driving to my banks ATM, Santander Bank Clinton, Mr
Ciruolo was walking north on route 70 on Main Street
Clinton Massachusetts by Wash Works car wash
towards me while I was driving south on route 70.
My windows in my car were down and I yelled an
explicit at him and continued to drive to my bank. On
the return ride back to the laundromat I didn’t observe
Mr. Ciruolo. After finishing my laundry I drove straight
home and again didn’t observe Mr. Ciruolo.
After getting back home I unloaded my laundry into my
apartment and then proceeded to take my dogs out for a
walk. At approximately 9:25 PM when I took my dogs
out, they were pulling to my right towards the stairs and
I didn’t look to my left and started walking down the
stairs, then I saw a car coming straight at my dogs and I
and jumped back on to my stairs pulling my dogs with
me and observed Mr. Ciruolo and he appeared to be
5

App. 118

driving a grayish silver car and what appeared to be a
Toyota Camry and had almost hit myself and my dogs
and the house.
I can only conclude that this stepped up threatening and
harassing behavior of Richard Ciruolo and the
Department of Justice (DOJ) and its employees stem
from the different rulings in both Federal and
Massachusetts Superior Courts coupled with that I have
a petition of Writ of certiorari to be filed to the U.S.
Supreme Court within the next week or so. The DOJ
has continued to step up its aggressive behavior towards
me by jamming and dropping my cellular service,
harassing me on Facebook, harassing phone calls and
interrupting all of regular, electronic and FedEx mail.
This has been very well documented and this individual
is on video tape threatening and harassing me at
Anytime Clinton (my former gym) Shaws supermarket
Clinton Massachusetts and Market Basket in Hudson
Massachusetts. Along with driving around my
neighborhood.
I need you to pose him the questions on the order that I
filed in Massachusetts Superior Court (see attached) to
see if he is threatening me of his own free will or is he
being ordered to threaten me by parties within the DOJ
or whoever.
My main concern is that this individual needs to
surrender his firearms and I need to retain all of his
personal information in order to file injunctions in both
the Massachusetts Superior Court and Massachusetts
Boston District Court.
App6 119

I discussed my concerns on Saturday morning July 25,
2020 with my landlord Bill Aucion (who Cc on this
email) that if Mr. Ciruolo discharges his firearms within
my apartment, that stray bullets could potentially hit
my upstairs neighbors Autumn Jones and her two twin
one year old sons or if he hits my apartment with a
motor vehicle, because of the age and condition of the
apartment, it potentially could cause it to collapse and
fatally injure anyone within the apartment.
I have attached all the documentation (see attached) for
your reference and I have carbon copied (Cc) different
parties including five news agencies, two organizations
and Nancy Alfonzo from Senator Edwin Marky’s
office. Please advise.

Regards,
Irving F. Rounds Jr.
246 Beacon Street
Apartment 1
Clinton, MA 01510
Cell 781-504-8974
CONFIDENTIALITY NOTICE:
The contents of this email message and any attachments
are intended solely
for the addressee(s)
App. 120

t

\

\

and may contain confidential and/or privileged
information and may be
legally protected from
disclosure. If you are not the intended recipient of this
message or thenagent, or if this message
has been addressed to you in error, please immediately
alert the sender by
reply email and then
delete this message and any attachments* If you are not
the intended
recipient, you are hereby
notified that any use, dissemination, copying, or storage
of this message
or its attachments is
strictly prohibited

Sent from my iPad
Begin forwarded message:
From: "Irving F. Rounds Jr." <roundsmechanical5@protonmail.com>
Date: June 10, 2020 at 7:17:36 AM EDT
To: "melissa.iuarez@iud.state.ma.us” <meiissa.iuarez@iud.state.ma.us>
Cc: "robert.auinan@mass.gov" <robert.Quinan@mass.gov>.
"agoOstate.ma.us" <ago@state.ma.us>. "charlie.baker@state.ma.us"
<charlie.baker@state.ma.us>. "christopher.s.mason@state.ma.us"
<christopher.s.mason@state.ma.us>. "cis@sec.state.ma.us"
<cis@sec.state.ma.us>. Stephen Crowne
<stephengcrowne@vahoo.com>. "bruce.e.o'rourke@state.ma.us"
<bruce.e.o'rourke@state.ma.us>, Bruce O’Rourke Sergeant
<bruce.orourke@state.ma.us>. "bcovne@clintonpd.com"
<bcovne@clintonpd.com>. "chief@clintonpd.com"
8

App. 121

\
(
\
<chief@clintonpd,com>. "cvnthia.voung@usdoi.gov"
<cvnthia.voung@usdoi.gov>, "hatchact@osc.gov" <hatchact@osc.gov>.
"info@osc.gov11 <info@osc.gov>. "ieffrev.a.rosen@usdoi.gov"
<ieffrev.a.rosen@usdoi.gov>. "lindsev graham@graham.senate.gov"
<lindsev gfaham@graham.senate.gov>. "william.p,barr@usdoi.gov"
<william.p.barr@usdoi.gov>. "phartobev@osc.gov"
<phartobev@osc.gov>. “OIG Hotline@epa.gov"
<OIG Hotline@epa.gov>. "Michael.E.Horowitz@usdoi.gov"
<Michael.E.Horowitz@usdoi.gov>. "opr.complaints@usdoi.gov"
<opr.complaints@usdoi.gov>.
"TAYLOR AtMDREAE@LGRAHAM.SENATE.GOV"
cTAYLOR ANDREAE@LGRAHAM.SENATE.GOV>.
"mward@dintonma.gov" <mward@clintonma.gov>.
I,kschmidt@clintonpd.com" <kschmidt@clintonpd.com>.
"Andrew.Lelling@usdoi.gov" <Andrew.Lelling@usdoi.gov>
Subject: Fwd: Re: 1984CV03692 Rounds, Irving F vs. Baker, Governor
Charlie et al
Repiy-To: "Irving F. Rounds Jr." <roundsmechanical5@protonmail.com>

Dear Ms. Juarez,
Again I would like to remind the Court and Judge Tochka that this man
(Richard Ciruolo) has been threatening me for over 3 1/2 years along
with my neighbors and the public. I have been seeking these records
from the Clinton Police Department for approximately a year and a half
and my last hearing was on March 4 of this year, which is over three
months ago.
My best friend's nephew works for the Massachusetts Attorney
General's office as an attorney. He has stated to my best friend that
there is minimal work going on right now within the court system
because crime has been reduced with the pandemic. He said that the
offices are only conducting urgent matters and there is minimal
paperwork.
That being said, I can only conclude that Judge Tochka and this Court
are favoring this individual because he works for the DOJ. I would like to
remind the Court and Judge Tochka that I have provided factual
evidence; I know that the Massachusetts State Police appreciates that
the DOJ staged my ex wife's car crash on March 5,2015.
The staged car crash by the DOJ that I alluded was an extreme act of
violence. After the car crash, I had to take my ex-wife to Lahey Clinic for
mild whiplash.That accident could have been fatal for my ex-wife if she
had a weak vertebrae.
I have provided this Court and Judge Tochka with all of my documents
from my two cases pending in the Federal Courts. Included in my
documents I have stated that I have a whistleblower (source) in the
Boston FBI field office. That source has stated that the DOJ has on a few
occasions staged national news events as justification to falsely arrest
9

App. 122

/
me and then shoot and kill my dogs to enrage me, and finally shootand
kill me.
I truly believe that if this Court and Judge Tochka continue to side with
the DOJ and show favoritism with the DOJ, it will encourage this
individual (Richard Ciruolo) to commit an act of violence towards myself
and possibly harm my neighbors and the public in the process.
This is the last request I shall make to the Court and Judge Tochka to
make a ruling on my Motion for Reconsideration and on my proposed
Order. I know I've said this many times in the past in my email
correspondence, but I have been exercising complete restraint by not
going public.
I cannot and will not allow this abuse to go on and I will not be
responsible for what potentially might follow if! do go public. This Court
and Judge Tochka will be responsible if there is in fact any civil unrest
that might follow.! say this based on the civil unrest that is unfolding
over George Floyd's death.
I feel that I will be safer by going public with my allegations. If I don't, I
feel that the DOJ and this one specific man (Richard Ciruolo) will
interpret this as the Courts are allowing this abuse and encouraging him
to physically harm me and potentially my neighbors and the public in
the process.
In closing, as George Floyd said "I can't breathe". The reason why I can't
breathe (figuratively speaking) is because I'm being forced against my
will in the DOJ's investigation of the Koch brothers and these high
profile politicians.
If I do go public with this complete Legal matter, I will follow through
with things mentioned above and in this previous email thread (string). I
will provide this email string on how I had tried every possible avenue to
have this man and the DOJ stop threatening me and then how this Court
and Judge Tochka failed to help me. I will also say that I had completely
exhausted all of my legal options to try to prevent the potential for civil
unrest that may follow. I will hand deliver a copy of this email to the
court. Please advise.
Regards,

Irving F. Rounds Jr.
246 Beacon Street
Apartment 1
Clinton, MA 01510
Sent from ProtonMail Mobile

--------- Forwarded message —-—From: Melissa Juarez<melissa.iuarez(5)iud.state.ma.us>
10

App. 123

